APPENDIX

INDEX TO APPENDICES
Opinion in the United States Court of Appeals for the Sixth Circuit
(April 1, 2020)
................................................................................................ App. 1
Memorandum Opinion in the United States District Court for the Northern
District of Ohio Eastern Division
(December 14, 2018) ........................................................................................... App. 17

i

Case: 19-3019

Document: 27-2

Filed: 04/01/2020

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0105p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JANE DOE and JOHN DOE, Individually and as the
natural parents and next of kin of Minor Doe,
Plaintiffs-Appellants,

┐
│
│
│

>

v.
JACKSON LOCAL SCHOOL DISTRICT BOARD OF
EDUCATION, TAMARA NEFF, MICHELLE KRIEG, JIMMIE
SINGLETON, SUSANNE WALTMAN, and HARLEY
NEFTZER,
Defendants-Appellees.

│
│
│
│
│
│
│
│
┘

No. 19-3019

Appeal from the United States District Court
for the Northern District of Ohio at Akron.
No. 5:17-cv-01931—Sara E. Lioi, District Judge.
Argued: October 23, 2019
Decided and Filed: April 1, 2020
Before: GUY, BUSH, and MURPHY, Circuit Judges.
_________________
COUNSEL
ARGUED: Laura L. Mills, MILLS, MILLS, FIELY & LUCAS, LLC, Canton, Ohio, for
Appellants. Sherrie C. Massey, PETERS KALAIL & MARKAKIS CO., LPA, Cleveland, Ohio,
for Appellees. ON BRIEF: Laura L. Mills, MILLS, MILLS, FIELY & LUCAS, LLC, Canton,
Ohio, for Appellants. Sherrie C. Massey, David S. Hirt, PETERS KALAIL & MARKAKIS
CO., LPA, Cleveland, Ohio, for Appellees.

App. 1

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Page: 2

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page 2

_________________
OPINION
_________________
MURPHY, Circuit Judge. Like other cases involving the “state-created-danger” theory
of substantive due process, this case comes to us with tragic facts: a fifth grader sexually
assaulted a kindergartener. Cf. McQueen v. Beecher Cmty. Schs., 433 F.3d 460, 462 (6th Cir.
2006); Schroder v. City of Fort Thomas, 412 F.3d 724, 725 (6th Cir. 2005). The fifth-grade
student, C.T., lit a match during the bus ride home from an Ohio elementary school. In response,
school administrators moved him to the front of the bus. While seated in the front, he sexually
assaulted the kindergarten student, Minor Doe, as they rode home from school over several
weeks. C.T. was expelled and is not a defendant. Instead, Minor Doe’s parents brought a statecreated-danger claim against the Jackson Local School District Board of Education and five
school employees. The district court granted summary judgment to these defendants, holding
that no reasonable jury could find that they knowingly exposed Minor Doe to the risk of sexual
assault. We must agree, and respectfully reaffirm that the Constitution does not empower federal
judges to remedy every situation we find “heart-wrenching.” Schroder, 412 F.3d at 731.
I
In the fall of 2015, Jimmie Singleton began driving the bus that C.T. and Minor Doe rode
to and from their elementary school. The bus driver that Singleton replaced had handled this
route for years, but retired at the end of the prior school year. Soon after this transition, school
administrators fielded some parent complaints about Singleton’s ability to prevent student
misconduct compared to the previous bus driver.

Harley Neftzer, the school’s director of

transportation, spoke with Singleton about the complaints and did not hear further concerns from
parents for the rest of the school year.
At the start of the 2016–2017 school year, Singleton created a seating chart for the
students on his bus. The school district encouraged drivers to assign younger students to the
front of the bus and older students to the back. Minor Doe was entering kindergarten and C.T.
was entering the fifth grade. So Singleton assigned C.T. to a seat in the back with the older

App. 2

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 3
Page 3

children, while Minor Doe sat in the front row directly behind the driver’s seat. Another
kindergartener sat next to Minor Doe in the mornings on the way to school. But Minor Doe sat
alone in the afternoons because her seatmate did not ride the bus home.
On September 15, 2016, a student told his teacher that C.T. had lit a match on the bus the
day before. The teacher relayed this concern to the dean of students, Michelle Krieg. Krieg and
a guidance counselor, Tamara Neff, investigated the allegation. Students told them that C.T. had
lit matches during the afternoon bus ride and had lit matches and burned cardboard while waiting
at the bus stop the prior morning. A camera on the bus recorded C.T. lighting a match and
throwing it out the window over another student’s head. A search of the school grounds turned
up matches in a bathroom trashcan. Making matters worse, C.T. had tried to prevent fellow
students from telling school administrators about his conduct. One student had immediately
attempted to report C.T. to Singleton, but C.T. had blocked her path to the bus driver. And C.T.
had promised not to bother another student for the rest of the year if the student did not tell
anyone about the matches.
Krieg and Neff summarized the findings of their investigation for the school’s principal,
Susanne Waltman. Waltman interviewed C.T. He was initially dishonest about what he had
done. When Waltman confronted him with the bus video, C.T. confessed.
Waltman disciplined C.T. She found that he had violated several codes of conduct. His
violations included: “failing to tell the truth”; engaging in “[b]ehavior which causes or
reasonably could cause physical harm to students or adults”; and “[p]ossession of or igniting of”
a device “which produces an explosion, smoke, fire, gas, or odor.”

She placed C.T. in

“alternative day assignment” for a day and a half. She suspended him from riding the bus for a
week or so. And she required him to sit in the front row of the bus across from the driver for the
rest of the school year. Waltman wanted C.T. in that seat because it would be “easier [for the
bus driver] to see” him, and “if he lit a match, the driver could smell it.”
Waltman also crafted a “Safety Plan” for C.T.

For the indefinite future, a school

employee would meet C.T. at the bus each morning and escort him to the school office, where
school officials would check his backpack. Someone would then escort C.T. to class. C.T. could

App. 3

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 4
Page 4

not go into the hallway or restrooms unless escorted by an adult. He could only play on the
playground blacktop near the adult monitors. And he would have assigned seats in gym class, in
music class, in the library, and in the cafeteria. Waltman explained that she wanted C.T. “to be
close to an adult at all times” because C.T. had been “dishonest” when asked about the matches.
Before this incident, school administrators had been involved with C.T. one prior time.
Teachers had developed a “Success Plan” for C.T. soon after he enrolled in the middle of his
third-grade year. According to Neff, the guidance counselor, C.T. had struggled with “being
truthful, being respectful of other people’s property, and following directions the first time they
were given.” He, for example, “would take someone’s glue sticks” and deny doing so. As part
of the plan Neff checked in with C.T. about ten times in all. By the end of C.T.’s third-grade
year, she recalled that the Success Plan “kind of dwindled off.” By C.T.’s fifth-grade year, his
teacher described him as “a little bit chatty, talkative, but really kind of typical of a fifth grade
boy.”
Singleton, the bus driver, learned that C.T.’s new seat assignment would be in the bus’s
front-right seat. Waltman claims that she explained to Singleton that C.T. “had lit matches on
the bus and he was coming to the front because he was not truthful.” Singleton, however, recalls
hearing about the matches and seat restriction from Neftzer, the director of transportation. No
one told Singleton about C.T.’s building restrictions.
C.T. shared his new front-row seat with a kindergarten boy. C.T.’s parents say they
asked that he sit alone, but Singleton was not advised of such a request. When making this
assignment, Waltman did not consider which students were assigned to the front of the bus.
C.T.’s new seat was across the aisle from Minor Doe’s. Her seat, directly behind Singleton, was
“the worst seat on the bus” in terms of his visibility.
At some point after C.T. returned to the bus, he moved out of his assigned seat and into
Minor Doe’s seat. Singleton denied knowing that C.T. had moved across the aisle because, he
said, he keeps his “focus on driving the bus.” Singleton also denied telling C.T. that he could sit
with Minor Doe, but video footage shows at least one instance where Singleton appears to have

App. 4

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 5
Page 5

motioned C.T. to sit next to Minor Doe. Principal Waltman did not follow up with Singleton to
ensure that he was enforcing C.T.’s new seat assignment.
At dinner on the night of Friday, November 11, Minor Doe told her parents that C.T. had
done “something really gross” on the bus ride home. She then described how C.T. had forced
her to engage in sexual acts several times. Minor Doe’s parents immediately notified the police
and emailed Principal Waltman. Waltman informed her superiors and arranged to meet with
Minor Doe’s parents Monday morning. Before the meeting, Waltman and Neftzer reviewed the
bus’s video footage and confirmed that C.T. had sexually assaulted Minor Doe. During the
ensuing investigation, they learned that C.T. had taken steps to hide the assaults. C.T. told the
kindergarten boy who shared his assigned seat to look out the window while the assaults
occurred. And he positioned his backpack so that Singleton, the bus driver, could not see the
assaults.
On Monday morning, Waltman suspended C.T. before he came to school. C.T. never
returned to the school, was eventually expelled, and later pleaded guilty to gross sexual
imposition. The school cooperated with the police, who concluded that Singleton had not known
of the assaults.
Minor Doe and her parents sued the School Board and five school employees: Singleton
(the bus driver), Waltman (the principal), Neff (the guidance counselor), Neftzer (the director of
transportation), and Krieg (the dean of students). The Does alleged, among other claims, that the
employees violated the Due Process Clause’s implied “substantive” component by failing to
prevent C.T.’s sexual assault of Minor Doe. Doe v. Jackson Local Sch. Dist. Bd. of Educ., 2018
WL 6590615, at *7 (N.D. Ohio Dec. 14, 2018). The district court granted summary judgment to
the defendants, concluding that this claim failed because the Does could not show that the
defendants had “acted with the ‘requisite culpability to establish a substantive due process
violation[.]’” Id. at *9 (citation omitted).
Even assuming a constitutional violation, the court alternatively concluded, the Does still
could not recover damages from the School Board or the school employees. It held that the Does
could not obtain damages from the Board because they did not show that C.T.’s assault arose

App. 5

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 6
Page 6

from a Board policy or custom, as required for municipal liability under Monell v. Department of
Social Services, 436 U.S. 658 (1978). Doe, 2018 WL 6590615, at *11. And it held that the Does
could not seek damages from the employees because they would be entitled to qualified
immunity even if they had violated due process. The Does identified no “clearly established”
caselaw that would have constitutionally compelled the employees to do more under the
circumstances. Id. at *17.
II
The Does challenge only the district court’s holding that the school employees did not act
with deliberate indifference; they nowhere challenge (or even acknowledge) the district court’s
alternative holdings that Monell and qualified immunity would bar relief against the Board and
the school employees even if they had violated due process. Yet “[a] ruling by us that the [Does]
have shown a constitutional violation, unaccompanied by a ruling with respect to any municipal
policy [or qualified immunity], would not suffice to alter the judgment.” Hardrick v. City of
Detroit, 876 F.3d 238, 244 (6th Cir. 2017). That fact might suggest we could affirm on these
unchallenged grounds alone. See id. at 243–44; White Oak Prop. Dev., LLC v. Washington
Township, 606 F.3d 842, 854 (6th Cir. 2010). Oddly, however, the school defendants also did
not raise these Monell and qualified-immunity bases for affirmance. Given the parties’ briefing
decisions, we exercise our discretion not to “address the municipal-policy and qualifiedimmunity issues . . . because both theories share an initial premise—the violation of a federally
protected right—that has not been satisfied.” Schroder v. City of Fort Thomas, 412 F.3d 724,
727 (6th Cir. 2005); see Hardrick, 876 F.3d at 244.
A
State actors who commit sexual assaults “deprive” their victims of their “liberty” interest
in bodily integrity within the meaning of the Due Process Clause. See Doe v. Claiborne County,
103 F.3d 495, 506 (6th Cir. 1996). Here, however, a private student (not a state actor) deprived
Minor Doe of this liberty interest. The Does’ allegations against the state actors thus stem from
their failure to protect Minor Doe from C.T.’s abuse. Yet this “failure-to-protect” claim faces
immediate textual and precedential problems. The clause’s text provides: “[N]or shall any State

App. 6

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 7
Page 7

deprive any person of life, liberty, or property, without due process of law.” U.S. Const. amend.
XIV, § 1. This plain language, which restricts deprivations by the state, imposes “a limitation on
the State’s power to act, not . . . a guarantee of certain minimal levels of safety and security.”
DeShaney v. Winnebago Cty. Dep’t of Soc. Servs., 489 U.S. 189, 195 (1989).
DeShaney adopted this plain-text reading. It held that social workers did not violate due
process when they negligently failed to prevent a father from abusing his son, Joshua DeShaney.
Id. at 203. According to the Court, the Due Process Clause’s text and history showed that the
clause did not compel states to protect their residents from a private party’s violence. Id. at 195–
96. The clause instead allowed the states to decide democratically whether to hold public actors
accountable for failing to protect residents. Id. at 196, 202–03. To reach this result, the Court
distinguished Joshua DeShaney from individuals (such as prisoners) who are in state custody and
whom a state has a constitutional duty to protect. See id. at 198–200. Yet the abuse that Joshua
suffered occurred when he was in the custody of his father, not the government. Id. at 201.
Both text and precedent thus could be read to foreclose the Does’ claim that school
officials violated due process by failing to prevent C.T.’s abuse. After all, we have repeatedly
held that students in schools are not in state “custody” within the meaning of DeShaney. Stiles
ex rel. D.S. v. Grainger County, 819 F.3d 834, 854 (6th Cir. 2016). We have, however, carved
out an exception to DeShaney’s rule that a state has no constitutional duty to protect individuals
who are not in its custody. When rejecting the due-process claim, DeShaney described the case’s
facts as follows: “While the State may have been aware of the dangers that Joshua faced in the
free world, it played no part in their creation, nor did it do anything to render him any more
vulnerable to them.” 489 U.S. at 201. We have used this sentence to adopt a “state-createddanger theory” of substantive due process, and have gradually molded that theory into a threepart test. See Estate of Romain v. City of Grosse Pointe Farms, 935 F.3d 485, 491–92 (6th Cir.
2019). An official must initially take an “affirmative act . . . that either create[s] or increase[s]
the risk that the plaintiff [will] be exposed to private acts of violence.” Schroder, 412 F.3d at
728. Next, this risk of private harm must rise to the level of a “special danger” to a specific
victim that exceeds the general risk of harm the public faces from the private actor. Jones v.
Reynolds, 438 F.3d 685, 696 (6th Cir. 2006). Last, when exacerbating this risk of harm, the

App. 7

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 8
Page 8

official must act with a sufficiently culpable mental state. McQueen v. Beecher Cmty. Schs.,
433 F.3d 460, 469 (6th Cir. 2006).
We can resolve this case on the third “culpability” element alone. Our decisions have
described this element in different ways. Sometimes we have said that a public official either
“must have known or clearly should have known that [the official’s] actions specifically
endangered an individual.” Kallstrom v. City of Columbus, 136 F.3d 1055, 1066 (6th Cir. 1998);
see Engler v. Arnold, 862 F.3d 571, 575 (6th Cir. 2017). Other times we have said that a public
official must have “acted with the requisite culpability to establish a substantive due process
violation[.]” Ewolski v. City of Brunswick, 287 F.3d 492, 510 (6th Cir. 2002).
Which test applies? The latter one more accurately articulates current law. A shouldhave-known framework comes close to “suggest[ing] a classic negligence formulation.” Estate
of Romain, 935 F.3d at 493–95 (Murphy, J., concurring). But a public official’s negligence
cannot prove a substantive-due-process violation even where the official directly inflicts the
injury. See County of Sacramento v. Lewis, 523 U.S. 833, 848–49 (1998); Daniels v. Williams,
474 U.S. 327, 332–33 (1986). And our recent decisions using the should-have-known test have
their roots in Kallstrom, a case predating the Supreme Court’s Lewis decision. E.g., Cartwright
v. City of Marine City, 336 F.3d 487, 493 (6th Cir. 2003). Since Lewis, we have recognized that
the culpability standard that applies to state actors who indirectly allow a private party to inflict
harm should not be lower than the culpability standard that applies to state actors who directly
inflict that harm themselves. See Ewolski, 287 F.3d at 510.
This answer leads to another question: What is “the requisite culpability to establish a
substantive due process violation”? Id. The Supreme Court has told us that the Constitution sets
a high bar for this sort of constitutional tort. That is so because this claim relies on due process’s
implied substantive component and so requires courts to make subjective judgments with little
grounding in constitutional text or history. Here, as elsewhere, the Court has “been reluctant to
expand the concept of substantive due process because guideposts for responsible
decisionmaking in this unchartered area are scarce and open-ended.” Collins v. City of Harker
Heights, 503 U.S. 115, 125 (1992).

The Court has added a federalism concern to this

subjectivity concern. It has long resisted turning due process into a “font of tort law.” Paul v.

App. 8

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 9
Page 9

Davis, 424 U.S. 693, 701 (1976). Nowhere does the Constitution “purport to supplant traditional
tort law in laying down rules of conduct to regulate liability for injuries that attend living
together in society.” Daniels, 474 U.S. at 332. The Constitution instead leaves those rules of the
behavioral road for the states themselves to regulate. Id.
For these reasons, the Supreme Court has held that an executive actor’s conduct violates
the Due Process Clause only if it is “so egregious, so outrageous, that it may fairly be said to
shock the contemporary conscience.” Lewis, 523 U.S. at 847 n.8. These colorful descriptors
may be “more than a little ‘open-ended.’” Browder v. City of Albuquerque, 787 F.3d 1076, 1079
(10th Cir. 2015) (Gorsuch, J.) (citation omitted). But they at least, “as Judge Friendly put it,
‘poin[t] the way’”: only extreme misconduct will violate the clause. Lewis, 523 U.S. at 847
(quoting Johnson v. Glick, 481 F.2d 1028, 1033 (2d Cir. 1973)). To offer clearer guidance, the
Court has placed this shocks-the-conscience test within tort law’s traditional “spectrum of
culpability.” Id. at 848. On one end, negligent conduct will never shock society’s conscience.
Daniels, 474 U.S. at 328. On the other, conduct unjustifiably “intended to injure” is the “most
likely to rise to the conscience-shocking level.” Lewis, 523 U.S. at 849. The Court has reserved
a case-by-case approach for public actors who cause harm with a state of mind falling in between
these extremes—such as actors who are deliberately indifferent to the risk of a private party’s
harm. Id. It has said that deliberate indifference can at times support liability if a public official
injures (or fails to protect) someone that the government has taken into custody. See Farmer v.
Brennan, 511 U.S. 825, 835–38 (1994). But it has added that an actual intent to injure is
required when public actors must make hasty decisions, such as during a high-speed chase or a
prison riot. Lewis, 523 U.S. at 852–53.
Our court has imported this deliberate-indifference standard into the state-created-danger
context, at least when officials have “the opportunity for reflection and unhurried judgments.’”
Bukowski v. City of Akron, 326 F.3d 702, 710 (6th Cir. 2003) (quoting Ewolski, 287 F.3d at 511
n.5); cf. Hunt v. Sycamore Cmty. Sch. Dist. Bd. of Educ., 542 F.3d 529, 539–40 (6th Cir. 2008).
The standard has two parts. An official must “be aware of facts from which the inference could
be drawn that a substantial risk of serious harm exists, and he must also draw the inference.”
Ewolski, 287 F.3d at 513 (quoting Farmer, 511 U.S. at 837). “Having drawn the inference,” the

App. 9

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Page: 10

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page 10

official next must “act or fail to act in a manner demonstrating ‘reckless or callous indifference’
toward the individual’s rights.” Id. (citation omitted). Given the call for caution in this area,
Collins, 503 U.S. at 125, our cases set demanding rules for both parts of this standard.
Start with the first part: To “be aware of facts from which the inference could be drawn
that a substantial risk of serious harm exists,” Ewolski, 287 F.3d at 513 (citation omitted), a
public official must know of more than a general risk of harm. The official must know of the
specific risk that later develops. In McQueen, for example, a first-grade student (“John Smith”)
fatally shot another student (“Jane Doe”) when the children’s teacher, Alicia Judd, left them
unsupervised. 433 F.3d at 463. Before this shooting, Smith had been “involved in several
incidents where he attacked other students, sometimes beating them up and other times stabbing
them with a pencil.” Id. at 462. Doe’s mother sued Judd and alleged that she “knew that Smith
might violently assault another student” and ignored that risk by leaving him unsupervised. Id.
at 469. But Judd’s knowledge of Smith’s “sometimes violent behavior” was not enough to prove
that she knew that Smith posed a risk of gun violence. Id. (citation omitted). Judd had no notice
that Smith “would escalate from hitting with fists, feet, and pencils” to shooting with guns. Id. at
470; see also Range v. Douglas, 763 F.3d 573, 591 (6th Cir. 2014).
Turn to the second part: To act with “reckless or callous indifference,” Ewolski, 287 F.3d
at 513 (citation omitted), a public official must do more than be aware of “a substantial risk of
serious harm,” Hunt, 542 F.3d at 543. The official’s response to that harm must also be
“conscience shocking.” Schroder, 412 F.3d at 731. And if the official chooses a response
motivated by a “legitimate governmental purpose,” this element will generally be absent. Hunt,
542 F.3d at 542. Schroder best proves that point. In that case, city officials knew that a street’s
speed limit risked deadly accidents because residents repeatedly warned them of that risk and
asked for a lower speed limit. 412 F.3d at 726. After a speeding car tragically killed a 10-yearold boy, his parents sued those officials under the state-created-danger theory. Id. We rejected
their claim. While the officials may have “exhibited deliberate indifference to the[] warnings,”
that indifference alone did not suffice. Id. at 729. “It is in the very nature of deliberative bodies
to choose between and among competing policy options,” we said, and “a substantive due
process violation does not arise whenever the government’s choice prompts a known risk to

App. 10

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Page: 11

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page 11

come to pass.” Id. The official’s choice of a speed limit simply did not establish the required
“‘callous disregard’ or ‘conscience shocking’ element.” Id. at 731.
B
Measured against these standards, the Does have not created a genuine dispute of
material fact over the culpability element of our state-created-danger test.

See McQueen,

433 F.3d at 463. Before explaining why, we must begin with a high-level point about the cause
of action in 42 U.S.C. § 1983. The Does barely distinguish among the Board and the five school
employees, making broad-bush statements against “Defendants-Appellees” collectively. That
will not do. “[V]icarious liability is inapplicable to . . . § 1983 suits,” so a plaintiff must plead
and prove “that each Government-official defendant, through the official’s own individual
actions, has violated the Constitution.” Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009); McQueen,
433 F.3d at 470. The Does thus must show that each employee knew of a risk that C.T. would
sexually assault Minor Doe and responded to that risk in a way that society would find
“conscience shocking.” But they have little to say about the knowledge or conduct of several
defendants. Take Michelle Krieg, the dean of students. She gathered the facts as part of the
school’s match-lighting investigation. But she “was not involved in . . . the development of” the
Safety Plan or “the decision to assign [C.T.] to sit in the front of the bus.” How could Krieg face
liability given her tangential connection to the harm? The Does do not say. They instead focus
on the actions of Susanne Waltman (the principal) and Jimmie Singleton (the bus driver). Yet
the Does fail to establish either part of our deliberate-indifference standard for any school
employee.
1. Knowledge of the Risk. We agree with the district court that “nothing about C.T.’s
school record . . . could have put the [school employees] on notice that [C.T.] posed a risk of
sexually assaulting” Minor Doe. Doe, 2018 WL 6590615, at *10. Consider the facts they knew:
C.T. had lit a match on the bus and threw it out the window, and had lit matches and burned
cardboard at the bus stop. These actions showed that, when left unsupervised, C.T. might engage
in risky behavior that could put fellow students in harm’s way. School employees also knew that
C.T. had prevented students from reporting his conduct, and had been dishonest when confronted
by school officials. All told, then, they knew that C.T.’s poor judgment, bullying tendencies, and

App. 11

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Page: 12
Page 12

Doe, et al. v. Jackson Local Sch. Dist., et al.

dishonesty had the potential to endanger students. Yet nothing about the “kind and degree of
risk” from this reckless match-lighting incident suggested that C.T. also posed a risk of
intentional sexual assault. Range, 763 F.3d at 591.
In that respect, this case is easier than McQueen. There, the school official actually knew
of the shooter’s history of intentional violence against other students. As noted, “in the months
leading up to the shooting, [he had been] involved in several incidents where he attacked other
students, sometimes beating them up and other times stabbing them with a pencil.” 433 F.3d at
462. Yet these prior assaults did not put his teacher on notice that he would resort to gun
violence. Id. at 469–70. Here, the school officials had no knowledge of C.T. ever attacking
students. If a history of physical violence cannot establish subjective awareness of a risk of gun
violence, it follows that C.T.’s lighting of a match—better categorized as reckless—cannot
establish subjective awareness of a risk of sexual violence.
Nor would any other conduct have given the school employees the required notice.
C.T.’s third-grade “Success Plan,” for example, had nothing to do with school violence, let alone
sexual assault. Simply put, C.T.’s theft of glue sticks would not warn the employees that C.T.
might sexually assault students. It is likewise insufficient that the Does’ expert witness opined
that sexually abusive youth also frequently have behavioral problems.
2. Response to the Risk. The school employees’ responses to the risk also do not show
the “callous disregard” or “conscience shocking” behavior that our state-created-danger cases
require. See Schroder, 412 F.3d at 731. They did not ignore a risk that C.T. would harm his
fellow students. Far from it. Soon after the dean of students got word of the match-lighting
claims, the school employees quickly investigated the incident.

And Principal Waltman

designed a Safety Plan tailored to C.T.’s misconduct. That plan would, for the most part, put
C.T. “close to an adult at all times,” which would reduce the opportunities for the type of
reckless behavior that C.T. had undertaken on the bus and at the bus stop.
To be sure, Waltman’s choice to move C.T. to the front of the bus put him closer to
Minor Doe. But Waltman did not make this seating change for some “arbitrary” reason designed
to increase the risks of harm to Minor Doe. Hunt, 542 F.3d at 543. Waltman was instead

App. 12

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 13
Page 13

“motivated by a countervailing, legitimate governmental purpose.” Id. at 542. She moved C.T.
to his front-row seat across from Minor Doe because it would be “easier [for the bus driver] to
see” him, and because “if he lit a match, the bus driver could smell it.” As she put it: “You can’t
smell a match when you’re in the front and the children are in the back.” She chose a course of
action based on the known risk before her (match lighting), not based on an unknown risk that
had yet to come to pass (sexual assault).
When choosing C.T.’s discipline, Principal Waltman also faced the “tradeoffs” we have
said generally do not establish conscience-shocking behavior. Id. Waltman chose a discipline
that, it’s safe to say, regularly occurs in schools across this country: If a child misbehaves on a
bus, the child gets moved to the front of the bus. Cf. Moore v. Chilton Cty. Bd. of Educ., 1
F. Supp. 3d 1281, 1290 n.4 (M.D. Ala. 2014). On the other hand, tougher sanctions faced
countervailing concerns. Sure, Waltman could have sought to expel C.T. or barred him from the
bus. But these harsher sanctions likely would have risked an administrative or judicial retort that
the punishment did not fit the crime. Cf. Cisek v. Nordonia Hills Bd. of Educ., 2011 WL 806518,
at *4 (Ohio Ct. App. Mar. 9, 2011); see Goss v. Lopez, 419 U.S. 565, 573–75 (1975). Our statecreated-danger cases have sought to avoid this type of “Catch 22.” Hunt, 542 F.3d at 542.
As will often be the case in retrospect, Waltman and Singleton also could have done more
when implementing this discipline.
assigned seat.

Singleton could have ensured that C.T. stayed in his

And Waltman could have followed up with Singleton about the discipline.

At most, however, the failure to take these additional precautions suggests negligence, which
falls well short of establishing the required “callous disregard for the safety” of Minor Doe.
Ewolski, 287 F.3d at 514. And even these specific choices came with tradeoffs of their own.
The more time Singleton spent monitoring for student misconduct, the less time he spent
watching the road. It is not callously indifferent to prioritize his “focus on driving the bus” for
the safety of all. And, as Waltman explained, “there are so many moving parts in a school
building during a day” that “following up with every single on-the-spot decision is not even
humanly possible.” In short, “the practicalities of day-to-day governance require officials to
make difficult allocation choices and tradeoffs,” and “it is generally not for the courts to compel
affirmative steps in one area at the expense of another in weighing competing policy options.”

App. 13

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Page: 14

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page 14

Schroder, 412 F.3d at 730. No school employees in this case acted in a way that could be
characterized as “conscience shocking.” Id. at 731.
C
The Does make a factual point and a legal point in response. Factually, they identify the
“extensive” Safety Plan as smoking-gun evidence that the school employees knew that C.T.
posed a serious risk of harm. Yet nothing in the Safety Plan suggests, as our cases require, that
the employees perceived the specific risk that materialized—the risk that C.T. would sexually
assault another student.

McQueen, 433 F.3d at 469–70.

To the contrary, Waltman was

preoccupied with C.T.’s specific infraction—lighting matches and lying about it—when
designing the Safety Plan. C.T. was not moved to the front of the bus for fear he might violently
attack older students in the back. He was moved to the front because he might light a match. Up
front (unlike in the back), the driver would be better able to smell any flame and take the proper
recourse.
Regardless, the Does’ use of this Safety Plan to impose liability on the school employees
flips the deliberate-indifference standard on its head. That approach would impose liability on
officials who vigorously respond to risks of harm (because this response evinces their
knowledge), while giving a free pass to officials who do nothing in response (because this
omission evinces their lack of knowledge). So “imposing liability . . . for acting in this manner
would dissuade [school employees] from responding expeditiously” to future risks. Tanner v.
County of Lenawee, 452 F.3d 472, 479 (6th Cir. 2006). That is why, in addition to a known risk
of harm, our deliberate-indifference standard has a second part—a requirement that the response
to the harm be “conscience shocking.” Schroder, 412 F.3d at 731. The extensive nature of the
Safety Plan all but confirms that the defendants’ response in this case was anything but.
Legally, the Does challenge the district court’s conclusion that the school employees
could be liable only if they knew of the risk of the specific type of harm—here, sexual assault. It
is a strange rule, they say, that would absolve the school employees of liability for C.T.’s sexual
assault of Minor Doe, but subject them to liability if C.T. had burned her instead. They argue it
should be enough that the employees knew of a general risk of harm from C.T. Both precedent

App. 14

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Page: 15

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page 15

and logic rebut this claim. As a matter of precedent, our cases foreclose the general-risk-of-harm
standard that the Does request. See McQueen, 433 F.3d at 469–70. Under their rule, McQueen
would have been wrongly decided. The teacher in that case undoubtedly knew that the student
posed a general risk of harm from his prior history of beating up children and stabbing them with
pencils. Id. at 462. But we rejected liability for his later gun violence nonetheless. Id.
As a matter of logic, our cases focus on the kind of risk known to the state actors because
that will inform the kind of response the Constitution requires. Here, for example, because C.T.
imposed a risk of lighting matches, the school employees developed a plan that would
discourage him from bringing matches on the bus. Their measures included not just moving him
to the front of the bus, but also letting him know that they would be checking his backpack every
morning for contraband.

It is not at all clear that these preventive measures would have

subjected the school employees to constitutional liability even if C.T. had burned Minor Doe.
And no matter the result on those hypothetical facts, the Constitution simply does not require a
school to treat an 11-year-old as a violent sexual predator based on a history of lying, bullying,
or playing with matches. This is not a negligence claim, but one sounding in a rare species of
one of the narrowest doctrines of constitutional law. See Estate of Romain, 935 F.3d at 492.
While C.T.’s sexual assault of Minor Doe undoubtedly shocks the conscience, the school
employees’ responses to C.T.’s earlier actions do not. And it is their conduct that is at issue here.
* * *
One final point bears repeating. Nothing in the federal Constitution prevents the states,
through their democratically elected representatives, from enacting laws that require school
officials to meet heightened standards of care in protecting their students. Cf. Jones, 438 F.3d at
699. Ohio, for example, does not extend tort immunity to municipal officials who act in a
“reckless manner[.]”

Doe, 2018 WL 6590615, at *17 (quoting Ohio Rev. Code

§ 2744.03(A)(6)(b)). Although the Does brought state tort claims in the district court, id. at *17–
18, they abandoned those claims in favor of a constitutional claim on appeal. Yet the federal
Constitution supplements traditional state tort liabilities only in rare circumstances involving
what the Supreme Court has described as truly “egregious” and “outrageous” conduct. Lewis,

App. 15

Case: 19-3019
No. 19-3019

Document: 27-2

Filed: 04/01/2020

Doe, et al. v. Jackson Local Sch. Dist., et al.

Page: 16
Page 16

523 U.S. at 847 n.8. Because the conduct of the school employees in this case does not meet that
high bar, we must affirm.

App. 16

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 1 of 38. PageID #: 3382

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
JANE AND JOHN DOE, Individually and as
the natural parents and next of kin of
MINOR DOE, their minor child, et al.,
PLAINTIFFS,
vs.
JACKSON LOCAL SCHOOL DISTRICT
BOARD OF EDUCATION, et al.,
DEFENDANTS.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. 5:17-cv-1931

JUDGE SARA LIOI
MEMORANDUM OPINION

Plaintiffs Jane and John Doe (collectively, the “Does”) individually and as the natural
parents and next of kin of Minor Doe (“Minor Doe”), bring this civil rights action against
defendants Jackson Local School District (“JLSD”) Board of Education (“Board”), Jimmie
Singleton (“Singleton”), Susanne Waltman (“Waltman”), Harley Neftzer (“Neftzer”), Tamara
Neff (“Neff”), and Michelle Krieg (“Krieg”) (collectively, individuals referred to as “JLSD
Employees”). Each party has moved for summary judgment. (Doc. No. 61 [“Does MPSJ”]; Doc.
No. 63 [“Board MSJ”]; Doc. No. 64 [“JLSD Employees MSJ”].) The dispositive motions are
fully briefed and ripe for resolution. (Doc. No. 73 [“Does MPSJ Opp’n”]; Doc. No. 70 [“Board
MSJ Opp’n”]; Doc. No. 72 [“JLSD Employees MSJ Opp’n”]; Doc. No. 78 [“Does MPSJ
Reply”]; Doc. No. 80 [“Board MSJ Reply”]; Doc. No. 79 [“JLSD Employees MSJ Reply”].)
I. PRELIMINARY MOTIONS
Before the Court can reach the merits of the substantive motions, it must address two
preliminary motions raised by the Does. First, the Does seek an order striking the affidavits of

App. 17

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 2 of 38. PageID #: 3383

Neftzer and Waltman, claiming that the affidavits contain information that contradicts prior
deposition testimony offered by these individuals. (Doc. No. 68 (Motion to Strike Affidavits
[“Mot. Strike Aff.”]).) The Board and JLSD Employees oppose the motion, insisting that the
subsequent affidavit averments merely elaborate or supplement testimony these individuals gave
during their depositions. (Doc. No. 76 (Opposition to Motion to Strike Affidavits [“Mot. Strike
Aff. Opp’n”]) at 2348.1)
It is well settled that a party may not contradict earlier deposition testimony by
subsequently offering an inconsistent affidavit. See Lockard v. Gen. Motors Corp., 52 F. App’x
782, 789 (6th Cir. 2002) (citing, among authority, Penny v. United Parcel Serv., 128 F.3d 408,
415 (6th Cir. 1997)). Having reviewed the briefing and the underlying discovery, the Court finds
that the cited testimony is either not contradictory, or contains minor factual inconsistencies that
have no bearing on the issues presented in the dispositive motions. Nonetheless, in an abundance
of caution, the Court will disregard those portions of the affidavits of Neftzer and Waltman that
can be viewed as potentially inconsistent with earlier deposition testimony. Therefore, the Does’
motion to strike the affidavits is GRANTED IN PART.
Second, the Does request that the Court strike the replies of the Board and JLSD
Employees offered in support of their respective motions for summary judgment, noting that
each brief exceeds the permitted page limit. (Doc. No. 83 (Motion to Strike Replies [“Mot. Strike
Replies”]).) On August 21, 2018, the Board and JLSD Employees sought leave to exceed the
page limitations on their motions for summary judgment. The Court subsequently granted the
motion in a non-document order providing that “[a]ll summary judgment motions may exceed
1

All page numbers are to the page identification number generated by the Court’s electronic docketing system.
2

App. 18

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 3 of 38. PageID #: 3384

the local rules limitation by 15 pages. All response briefs may exceed the local rules limitation
by 10 pages.” (Non-Document Order, dated 8/23/2018.) Each defense reply brief exceeded 20
pages.2 The Board and JLSD Employees insist that they reasonably interpreted the Court’s
language “[a]ll response briefs” to include reply briefs. They argue that, according to this
interpretation, their reply briefs comply with the Court’s grant of leave. (Doc. No. 84 (Motion to
Strike Replies [“Mot. Strike Replies”]) at 3040.)
Given that Local Rule 7.1(f) draws no distinction between response and reply briefs—
and, in particular, does not provide a separate page limitation in the first instance for reply
briefs—the Court accepts defendants’ collective interpretation of the Court’s non-document
order as reasonable. While the better course would have been to ask the Court for clarification
before filing a reply brief that clearly exceeded the limitation set forth in the local rules, the
Court finds no basis to grant the Does’ motion. Moreover, as is often the case with reply briefs,
the Court notes that the reply briefs filed by all parties in this action largely repeat arguments
raised in the initial motions and are of only limited assistance. Accordingly, the Court finds that
the Does will not be prejudiced by declining to permit them to provide further briefing on these
dispositive motions. The Does’ motion to strike defendants’ reply briefs is DENIED.
II. BACKGROUND
During the 2016-2017 school year, Minor Doe was a five-year old kindergarten student
attending Strausser Elementary, a school located in the JLSD. C.T. was an eleven-year old fifth
grade student who also attended Strausser. It is undisputed that over the course of several weeks

The Does suggest that the local rules limit all reply briefs, barring leave of court, to fifteen pages. This is incorrect.
Local Rule 7.1(f) limits all memorandum relating to dispositive motions in standard track cases to twenty pages. The
fifteen-page limitation is reserved for memorandum relating to non-dispositive motions. See L.R. 7.1(f).
2

3

App. 19

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 4 of 38. PageID #: 3385

between the end of October and the middle of November 2016, C.T. performed multiple sexual
acts on Minor Doe and made Minor Doe perform sexual acts on him while the two rode a JLSD
bus on their way home from school.
Bus Drivers, Routes, and Seating Charts
In fact, the parties agree as to most of the salient facts surrounding these unfortunate and
disturbing events. During this same period, Singleton was employed by JLSD as a bus driver,
and he was assigned to Minor Doe and C.T.’s bus route. (Doc. No. 63-1 (Affidavit of Harley
Neftzer [“Neftzer Aff.”]) ¶ 9.) The main function of a JLSD bus driver is to operate his vehicle
safely. (Id. ¶ 4.) Bus drivers are required to attend training provided by the Ohio Department of
Education (“ODE”), the school district, and the Stark County Educational Service Center (“Stark
County ESC”). (Id. ¶ 5; see Doc. No. 57-1 (Deposition of Jimmie Singleton [“Singleton Dep.”])
at 625–31.) In addition to bus safety, training topics include a variety of student-related issues,
such as pupil management and the accommodation of special needs. (Neftzer Aff. ¶ 5(a).)
Singleton, however, received no training relative to sexual harassment or sexual abuse.
(Singleton Dep. at 604.) Though he received a “satisfactory” rating as to pupil management in
his 2015 performance appraisal, the record demonstrates that, within a year of the incidents
giving rise to this litigation, Waltman, Strausser’s Building Principal, received parent complaints
regarding Singleton’s pupil management on his routes.3 (Doc. No. 56-1 (Deposition of Harley
Neftzer [“Neftzer Dep.”]) at 481–83.)
As the Director of Transportation & Safety, Neftzer was responsible for developing the
There was also evidence in the record that, in 2012, Singleton was involved in a traffic accident while operating a
JLSD van. (Singleton Dep. at 616–18.) He was cited for failing to yield. (Id.) While he received no discipline or
additional training following the accident, there is nothing in the record to suggest that Singleton was operating his
bus in an unsafe manner during the incidents involved herein.
4
3

App. 20

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 5 of 38. PageID #: 3386

bus routes prior to the start of each school year. (Neftzer Aff. ¶¶ 3, 6.) After the routes are
established and the bus drivers are assigned, bus drivers are provided with copies of information
pertaining to students, times, calendars, routes, and vehicle assignments. (Id. ¶ 7.) With respect
to students, bus drivers receive a route sheet that lists each student’s name, address, age, and
grade level. (Id.; Singleton Dep. at 636–37.) Bus drivers use this information to become familiar
with the students assigned to their routes and to create seating charts. (Neftzer Aff. ¶ 7; Singleton
Dep. at 637-38.)
When developing seating charts, bus drivers are encouraged to assign students according
to age and gender, with younger students sitting together in the front of the bus, and older
students sitting in the back of the bus. (Neftzer Aff. ¶ 7; Singleton Dep. at 636; Neftzer Dep. at
514–15.) The primary purpose of grouping the students by age and gender is that topics of
discussion differ between different age groups, and older students may discuss topics that are not
suited for younger students. (Neftzer Dep. at 514–15; Neftzer Aff. ¶ 7.) Copies of completed
seating charts are maintained by the Department of Transportation (“DOT”). (Neftzer Aff. ¶ 7.)
Throughout the school year, it may be necessary to move a student to a different seat for
a variety of reasons, including behavioral problems and conflicts between students. (Neftzer Aff.
¶ 8.) Given that bus drivers generally lack the authority to discipline students, a bus driver that
identifies a need for a student seat reassignment must submit a referral directed to the DOT or
the building principal. (Neftzer Aff. ¶ 8; Doc. No. 63-2 (Affidavit of Susanne Waltman
[“Waltman Aff.”]) ¶ 4.) The building principal generally conducts an investigation relative to the
request—which may entail discussions with the DOT, interviews of students and drivers, and
review of bus video surveillance—after which, the building principal determines the appropriate
5

App. 21

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 6 of 38. PageID #: 3387

course of action. (Waltman Aff. ¶ 4; Singleton Dep. at 632–34; Neftzer Aff. ¶ 8.) Depending on
the violation, the building principal may place the offending student in detention or an alternative
day assignment, suspend his bus riding privileges or move his seat to the front of the bus or to
some other seat, suspend him from school, or recommend expulsion. (Waltman Aff. ¶ 4.)
Match Lighting Incident
On September 15, 2016, Dean of Students Krieg received a call from C.T.’s teacher that a
student had reported that C.T. lit a match on the school bus during the afternoon bus route the
day before. (Doc. No. 63-3 (Affidavit of Michelle Krieg [“Krieg Aff.”]) ¶¶ 2, 5.) Krieg contacted
Neff, a guidance counselor, and the two spoke with another student who confirmed the incident,
noting that C.T. lit a match, blew it out, and threw it out the bus window. This second student
also indicated that, when she stood up to report the incident to Singleton, C.T. blocked her seat.
(Id. at ¶ 5.) Video surveillance confirmed the incident, including that C.T. lit a match and threw
it out the window. (Id.)
Shortly after meeting with the second student, Krieg removed C.T. from class, took him
to the school office, and spoke with him concerning the incident. During this conversation, Neff
searched the boys’ bathroom and found matches in a trash can, and a search of C.T’s backpack
revealed cardboard. C.T. conceded that he had thrown the matches away in the boy’s bathroom.
C.T. maintained that another student had supplied him with the matches, and he admitted that he
lit a match on the bus and blew it out before throwing it out the window. (Id.) A subsequent
interview of a third student revealed that C.T. was lighting matches and burning cardboard and
grass at the bus stop the morning of September 14, 2015. One of the students interviewed also
reported that C.T. told him that he would not bother the student for the rest of year if the student
6

App. 22

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 7 of 38. PageID #: 3388

did not tell anyone about the matches. (Id.)
Krieg and Neff reported the results of their information gathering efforts to Waltman.
(Krieg Aff. ¶ 5.) Waltman spoke with C.T., while Neftzer reviewed the video surveillance.
(Waltman Aff. ¶ 7.) Neftzer reported that the video footage captured and confirmed the
misconduct. (Id.; Neftzer Dep. at 475–76.) Waltman also contacted C.T.’s parents and informed
them that C.T. would be placed in an alternative day assignment for the remainder of the day.
(Waltman Aff. ¶ 8.) After an in-person meeting with C.T. and his parents, Waltman determined
that C.T. had violated the student conduct code and that he would remain in an alternative day
assignment and be prohibited from riding the bus from September 15, 2016 through September
23, 2016. Waltman then developed a “Safety Plan” to address C.T.’s misconduct and to prevent
future problems. As part of this plan, upon C.T.’s return to the bus, Waltman determined that
C.T. would be required to sit in the front seat of the bus for the remainder of the school year.
(Waltman Aff. ¶ 9(a).) Waltman then spoke with Singleton regarding the match lighting incident
and the change in C.T.’s seat assignment. (Id.; Waltman Dep. at 866–67.) Neftzer also spoke
with Singleton to confirm that he understood C.T’s bus consequences. (Neftzer Dep. at 495.)
Waltman also placed certain building restrictions upon C.T. (Waltman Aff. ¶ 9(b).)
According to these restrictions, C.T. was to be escorted off the bus each morning and brought to
the main office by a staff member, his backpack was to be searched, he was to be escorted to his
classes by an adult, he was limited to the black top of the playground during recess, and he was
to be given assigned seats in gym, music and during library time. (Waltman Aff. ¶ 9(b); Waltman
Dep. at 867–68.)
According to the Board and JLSD Employees, these measures represented the first time
7

App. 23

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 8 of 38. PageID #: 3389

C.T. was disciplined while attending Strausser. The Does disagree, citing to the fact that, shortly
after he enrolled at Strausser in the third grade, C.T. was placed on a “Success Plan.” Though the
parties dispute whether this plan was disciplinary in nature, the record establishes that the
impetus for the plan was teacher reports that C.T. was taking other student’s property, such as
glue sticks, and not being truthful about it. His teacher also reported that C.T. was having
difficulty following her directions. (Doc. No. 59-1 (Deposition of Tamara Neff [“Neff Dep.”]) at
1015–20.) Working with C.T.’s teacher, Neff designed the Success Plan to help C.T. make better
choices in the classroom. (Id.) The Success Plan remained in effect for the balance of the year,
but C.T. was not placed on a new plan for fourth or fifth grade, and Neff received no further
complaints regarding C.T.’s behavior until the match lighting incident in 2016. (Id. at 1026.)
The Sexual Assaults on Minor Doe and Defendants’ Response
Upon his return to the bus on September 26, 2016, C.T. was assigned to sit in the front
seat of the bus to the right of Singleton. (Singleton Dep. at 669; see Waltman Aff. ¶ 9(a).)
Another male student had previously been assigned to sit in the seat since the beginning of the
2016–2017 school year and continued to sit in that seat with C.T. (Singleton Dep. at 658.) Minor
Doe had been assigned to sit in the seat directly behind Singleton (and across from C.T.’s new
seat) since the beginning of the school year. (Id.) Minor Doe would sit with another female
kindergarten student on the morning bus ride to school, but the other kindergarten student did not
ride the bus in the afternoon, leaving the seat next to Minor Doe vacant during the ride home.
(Id. at 658–60.) Given its location directly behind the driver’s seat, Minor Doe’s seat afforded
the worst visibility for the driver. (See id. at 694.)
On Saturday, November 12, 2016, Waltman checked her emails and discovered that she
8

App. 24

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 9 of 38. PageID #: 3390

had received an email from Minor Doe’s mother the preceding evening (November 11, 2016)
advising that Minor Doe had reported to her parents at dinner that C.T. “did something really
gross on the bus this afternoon,” and that it was apparent to her parents that Minor Doe had been
sexually assaulted multiple times by C.T. (Waltman Aff. ¶ 12.) In the email, Minor Doe’s mother
indicated that she and her husband had already contacted the police, and that the authorities
would be contacting JLSD as well. After advising the Director of Curriculum, Instruction, and
Assessment of the allegations, Waltman contacted Neftzer and asked him to acquire the bus
video surveillance recordings during the relevant period between October and November 2016.
(Waltman Aff. ¶¶ 12, 13.) On Sunday, November 13, 2016, Waltman advised the JLSD
Superintendent of the allegations and went into the school office to call Minor Doe’s parents to
set up a meeting for Monday morning. (Waltman Aff. ¶ 13(a).)
At 6:00 a.m. on Monday, November 14, 2016, Waltman and Neftzer met to review the
video footage from the bus runs on November 10, 2016 and November 11, 2016. Their review
confirmed the Does’ allegations that C.T. had moved to Minor Doe’s seat and sexually assaulted
her. (Waltman Aff. ¶ 13(b).) Neftzer reviewed the footage again, later that day, with officers
from the Jackson Township Police Department (“JTPD”). (Neftzer Aff. ¶ 13.) Waltman and
Neftzer subsequently reviewed additional footage for the two-week period between October 31,
2016 and November 11, 2016. (Id.)
Waltman contacted C.T.’s parents during the morning of November 14, 2015 to advise
them to keep C.T. home and that he had been placed on emergency removal. (Waltman Aff. ¶
13(c).) Afterwards, at approximately 9:00 a.m., Waltman met with Minor Doe’s parents and Neff
concerning the allegations, and they were later joined by representatives from the JTPD.
9

App. 25

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 10 of 38. PageID #: 3391

(Waltman Aff. ¶ 13(c).) Minor Doe’s parents expressed their concern over the incident and
conveyed a request that the matter be kept confidential so as not to impact Minor Doe’s wellbeing at school.4 (Waltman Dep. at 40.)
The following day (November 15, 2016), Waltman met with C.T.’s parents to discuss the
allegations. (Waltman Aff. ¶ 13(d).) On November 16, 2016, Waltman conducted a suspension
hearing during which C.T. admitted to engaging in sexual misconduct. (Waltman Aff. ¶ 13(e).)
Waltman suspended C.T. for ten days, from November 14, 2016 to December 2, 2016, for
violating multiple sections of the student conduct code. (Waltman Aff. ¶ 13(e).) Waltman also
recommended that C.T. be expelled. (Waltman Aff. ¶ 13(e).) On November 30, 2016, the JSLD
Superintendent conducted an expulsion hearing, and, at the hearing’s conclusion, C.T. was
expelled. His expulsion was stayed pending possible remediation at a rehabilitative academy.
(Waltman Aff. ¶ 13(f), Ex. 3.) It is undisputed that C.T. never rode the bus again with Minor
Doe, and C.T. never again came into contact with her.
During the course of JLSD’s investigation, Waltman and other school officials
interviewed other students on the bus and looked at additional footage to identify other incidents
involving Minor Doe or other children. The investigation uncovered twelve occasions where
C.T. assaulted Minor Doe and/or inappropriately touched another student. (Doc. No. 70-2.) JSLD
also determined that C.T. told a male kindergarten student to look away on multiple occasions

Waltman subsequently met with Minor Doe’s teachers to see how Minor Doe was doing. (Waltman Aff. ¶ 13(g).)
None of her teachers reported any concerns. (Id.)
4

10

App. 26

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 11 of 38. PageID #: 3392

and that he would be paid if he did not report the abuse. (Waltman Dep. at 34.) Additionally,
C.T. plied Minor Doe with glitter pens when making her perform sexual acts on him. (Doc. No.
71-1 (Affidavit of Jane Doe [“Ja. Doe Aff.”]), and attached exhibit, filed under seal.)
Following JSLD’s investigation, Waltman conducted periodic classroom walkthroughs
and touched base with Minor Doe’s teachers to see how she was doing, and Waltman and Neff
remained in contact with Minor Doe’s parents. (Waltman Aff. ¶ 13(g).) Waltman also offered
counseling for Minor Doe and advised her parents that Neff was available to address any
concerns they had. (Waltman Aff. ¶ 13(g).)
JLSD also cooperated with JTPD’s investigation. C.T. was eventually charged with and
pleaded guilty to gross sexual imposition. The JTPD determined that Singleton had not engaged
in any criminal misconduct, and that C.T. had positioned his backpack such that the bus driver
would not have been able to see C.T.’s misconduct. (Neftzer Aff. ¶ 14.)
On August 15, 2017, the Does filed the present lawsuit in state court, and the Board and
the JLSD Employees subsequently removed the action to federal court. (Doc. No. 1-2
(Complaint); Doc. No. 1 (Notice of Removal).) As amended, the complaint raises claims under
42 U.S.C. § 1983; Title IX of the Educational Amendments of 1972 (“Title IX”), 20 U.S.C. §
1681 et seq.; political subdivision tort liability under Ohio Rev. Code § 2744.02; negligence
and/or reckless conduct; loss of filial consortium; and intentional infliction of emotional distress.
(Doc. No. 47-1 (Second Amended Complaint [“SAC”]).)
The Board and JLSD Employees now move for summary judgment, pursuant to Fed. R.
Civ. P. 56, on each and every claim asserted against them in the SAC. They also seek statutory
immunity for the state law claims asserted under the Ohio Revised Code, and JLSD Employees
11

App. 27

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 12 of 38. PageID #: 3393

assert a right to qualified immunity on the federal claims. The Does oppose these motions and
request partial summary judgment in their favor on the claims brought pursuant to 42 U.S.C. §
1983.
III. STANDARD OF REVIEW
When a party files a motion for summary judgment, it must be granted “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
A party asserting that a fact cannot be or is genuinely disputed must support the
assertion by: (A) citing to particular parts of materials in the record . . . ; or (B)
showing that the materials cited do not establish the absence or presence of a
genuine dispute, or that an adverse party cannot produce admissible evidence to
support the fact.
Fed. R. Civ. P. 56(c)(1).
In reviewing summary judgment motions, this Court must view the evidence in a light
most favorable to the nonmoving party to determine whether a genuine issue of material fact
exists. Adickes v. S.H. Kress & Co., 398 U.S. 144, 157, 90 S. Ct. 1598, 26 L. Ed. 2d 142 (1970);
White v. Turfway Park Racing Ass’n, Inc., 909 F.2d 941, 943–44 (6th Cir. 1990), impliedly
overruled on other grounds by Salve Regina Coll. v. Russell, 499 U.S. 225, 111 S. Ct. 1217, 113
L. Ed. 2d 190 (1991). A fact is “material” only if its resolution will affect the outcome of the
lawsuit. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505, 91 L. Ed. 2d 202
(1986). Determination of whether a factual issue is “genuine” requires consideration of the
applicable evidentiary standards. Thus, in most civil cases the Court must decide “whether
reasonable jurors could find by a preponderance of the evidence that the [nonmoving party] is
entitled to a verdict[.]” Id. at 252.
12

App. 28

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 13 of 38. PageID #: 3394

“Once the moving party has presented evidence sufficient to support a motion for
summary judgment, the nonmoving party is not entitled to trial merely on the basis of
allegations; significant probative evidence must be presented to support the complaint.” Goins v.
Clorox Co., 926 F.2d 559, 561 (6th Cir. 1991). The party opposing the motion for summary
judgment may not rely solely on the pleadings but must present evidence supporting the claims
asserted by the party. Banks v. Wolfe Cty. Bd. of Educ., 330 F.3d 888, 892 (6th Cir. 2003); see
Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986) (finding
that summary judgment is appropriate whenever the nonmoving party fails to make a showing
sufficient to establish the existence of an element essential to that party’s case and on which that
party will bear the burden of proof at trial). Moreover, conclusory allegations, speculation, and
unsubstantiated assertions are not evidence, and are not sufficient to defeat a well-supported
motion for summary judgment. See Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888, 110 S. Ct.
3177, 111 L. Ed. 2d 695 (1990). In other words, to defeat summary judgment, the party opposing
the motion must present affirmative evidence to support his or her position; a mere “scintilla of
evidence” is insufficient. Bell v. Ohio State Univ., 351 F.3d 240, 247 (6th Cir. 2003) (quotation
marks and citation omitted). Rule 56 further provides that “[t]he court need consider only” the
materials cited in the parties’ briefs. Fed. R. Civ. P. 56(c)(2); see also Street v. J.C. Bradford &
Co., 886 F.2d 1472, 1479–80 (6th Cir. 1989) (“The trial court no longer has the duty to search
the entire record to establish that it is bereft of a genuine issue of material fact.” (citing FritoLay, Inc. v. Willoughby, 863 F.2d 1029, 1034 (D.C. Cir. 1988))).
The summary judgment standard does not change when a court is presented with crossmotions for summary judgment. Profit Pet v. Arthur Dogswell, LLC, 603 F.3d 308, 312 (6th Cir.
13

App. 29

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 14 of 38. PageID #: 3395

2010) (citing Taft Broad. Co. v. United States, 929 F.2d 240, 248 (6th Cir. 1991)). “The fact that
both parties have moved for summary judgment does not mean a court must grant judgment as a
matter of law for one side or the other; rather, a ‘court must evaluate each party’s motion on its
own merits, taking care in each instance to draw all reasonable inferences against the party
whose motion is under consideration.’” Id. (quoting Taft, 929 F.2d at 248); see 60 Ivy St. Corp. v.
Alexander, 822 F.2d 1432, 1435 (6th Cir. 1987) (the threshold requirement for all parties who
seek summary judgment under Rule 56 demands that the moving party come forward with
competent evidence showing that there is no genuine issue of material fact and that the movant is
entitled to judgment in her favor as a matter of law).
IV. THE BOARD’S MOTION FOR SUMMARY JUDGMENT
A.

§ 1983—Substantive Due Process

To establish a cause of action under 42 U.S.C. § 1983, a plaintiff must show: (1)
deprivation of a right secured by the Constitution or laws of the United States (2) caused by a
person acting under color of state law. McQueen v. Beecher Cmty. Schs., 433 F.3d 460, 463 (6th
Cir. 2006). The Does argue that the Board and the JLSD Employees, while acting under color of
law, deprived Minor Doe of her substantive due process rights when they permitted C.T. to
sexually assault her on a JLSD school bus.
The Due Process Clause does not generally impose an affirmative duty on the State to
protect its citizens from the violence of third parties. DeShaney v. Winnebago Cty. Dep’t of Soc.
Servs., 489 U.S. 189, 196, 109 S. Ct. 998, 103 L. Ed. 2d 249 (1989) (The Due Process Clause’s
purpose is “to protect the people from the State, not to ensure that the State protected them from
each other.”) In DeShaney, the Supreme Court refused to impose municipal liability for parental
14

App. 30

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 15 of 38. PageID #: 3396

abuse a child sustained after officials failed to remove the child from his father’s custody. Id. at
201. However, in so ruling, the DeShaney Court impliedly recognized, and courts such as the
Sixth Circuit have endorsed, two exceptions whereby state actors have an affirmative duty of
protection—“where they have a ‘special relationship’ with an individual, or where their conduct
toward the individual results in a ‘state-created danger.’” Brooks v. Knapp, 221 F. App’x 402,
406 (6th Cir. 2007) (quoting Kallstrom v. City of Columbus, 136 F.3d 1055, 1066 (6th Cir.
1998)).
1.

Special Relationship

While the SAC purports to raise a claim under the first exception, the Does fail to even
respond to the Board’s arguments that it had no special custodial relationship with Minor Doe by
virtue of her attendance at Strausser Elementary or her presence on a JLSD bus. (See SAC at ¶¶
88-92.) Of course, at the summary judgment stage, the Does were required to venture past their
pleadings and offer some developed argumentation as to the validity of their claim. McPherson
v. Kelsey, 125 F.3d 989, 995–96 (6th Cir. 1997); see Banks, 330 F.3d at 892.
Further, it is well-settled that forced or involuntary custody is necessary to establish a
special relationship with the State. Doe v. Claiborne Cty., 103 F.3d 495, 510 (6th Cir. 1996); see
Jackson v. Schultz, 429 F.3d 586, 590 (6th Cir. 2005); Sargi v. Kent City Bd. of Educ., 70 F.3d
907, 911 (6th Cir. 1995) (“A special relationship can only arise when the state restrains an
individual.”) (emphasis in original). However, compulsory school attendance does not create a
special relationship between school districts and their students. Soper v. Hoben, 195 F.3d 845,
853 (6th Cir. 1999); Sargi, 70 F.3d at 911 (collecting cases). Likewise, the Sixth Circuit has
determined that transporting students via a school bus does not create a special relationship.
15

App. 31

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 16 of 38. PageID #: 3397

Sargi, 70 F.3d at 911. As such, the record simply does not support a finding that there was a
special relationship between the Board and Minor Doe.
2.

State-Created Danger

“Liability under the state-created danger theory is predicated upon affirmative acts by the
state which either create or increase the risk that an individual will be exposed to private acts of
violence.” Kallstrom, 136 F.3d at 1066. Accordingly, in Kallstrom, the Sixth Circuit recognized
three elements a plaintiff must satisfy to establish liability under the state-created danger
exception: (1) an affirmative act that creates or increases the risk, (2) a special danger to the
victim as distinguished from the public at large, and (3) the requisite degree of state culpability.
Id.; see McQueen, 433 F.3d at 464; Cartright v. City of Marine City, 336 F.3d 487, 493 (6th Cir.
2003). While the parties dispute the existence of an affirmative act (the first element), the Court
finds the absence of the requisite culpability (the third element) dispositive, as the record does
not support a finding that the Board and the JLSD Employees “knew or should have known that
[their] actions specifically endangered” Minor Doe. Cartright, 336 F.3d at 493.
“In determining whether an affirmative state act increased the risk of harm to an
individual, the question is whether the individual ‘was safer before the state action than . . . after
it.” Jasinski v. Tyler, 729 F.3d 531, 539 (6th Cir. 2013) (emphases in original) (quoting
Cartwright, 336 F.3d at 493). The Board argues that, at best, the JLSD Employees were guilty
of a “failure to act” by failing to ensure that C.T. did not move from his newly assigned bus seat
into the seat next to Minor Doe, and that this omission cannot be considered an affirmative act

16

App. 32

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 17 of 38. PageID #: 3398

under the state-created danger test.5 (Board MSJ at 1815–17.) By way of analogy, the Board cites
several decisions wherein school officials merely failed to take certain actions to prevent harm
by a third party and were not liable for a state-created danger. See, e.g. Pahssen v. Merrill Cmty.
Sch. Dist., 668 F.3d 356, 367 (6th Cir. 2012) (school did not affirmatively place female student
in increased risk of harm of sexual assault by warning the student perpetrator against continued
sexual harassment of the victim); McQueen, 433 F.3d at 466–67 (a teacher who momentarily left
students unsupervised did not take an “affirmative act” subjecting the students to violence by
another student who had secretly brought a gun school); Reed v. Knox Cty. Dep’t of Human
Servs., 968 F. Supp. 1212, 1220–22 (S.D. Ohio 1997) (state agency was not responsible for acts
committed by a foster child, notwithstanding the fact that the agency failed to inform the foster
family of the child’s violent history prior to his placement).
The Board’s argument fails on two fronts. First, while the Board points to affidavits from
various JLSD Employees who aver that they did not instruct C.T. to sit with Minor Doe and were
unaware that C.T. was moving his seat, the Does represent, and the Board does not deny, that the
bus video footage shows at least one instance where Singleton motioned to C.T. to sit next to
Minor Doe. (Board MSJ Opp’n at 2384.) Such a gesture would certainly qualify as an
affirmative act. Because the Court must view the evidence in the light most favorable to the nonmoving party—here, the Does—the Court finds that a state actor took an affirmative step.
Of course, even without Singleton directing C.T. to sit next to Minor Doe, the Court

The Court notes that, in drawing this distinction, the Board relies on M.S. by Covington v. Hamilton Cty. Dep’t of
Educ., No. 1:16-cv-501, 2017 WL 4364408 (E.D. Tenn. Sept. 29, 2017). However, that decision was recently
overturned by the Sixth Circuit. See M.S. by Covington v. Hamilton Cty. Dep’t of Educ., No. 17-6241, -- F. App’x --,
2018 WL 5734642, at *5 (6th Cir. Nov. 1, 2018) (finding that a school principal took an affirmative act that
increased students’ risk of injury from an unsafe bus driver by instructing students to board school bus,
notwithstanding the fact that the action was taken in conformance with a school policy).
17
5

App. 33

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 18 of 38. PageID #: 3399

would still find the existence of affirmative acts that increased the risk of harm to Minor Doe. In
Caldwell v. Louisville, 120 F. App’x 566 (6th Cir. 2004), a mother sued a city after her daughter
was killed by her live-in boyfriend. In reversing the district court’s grant of summary judgment
for the city on the substantive due process claim, the Sixth Circuit found that the city took some
affirmative acts—including failing to follow through with obtaining a warrant against the
boyfriend and continuing to pursue criminal charges against the boyfriend—that substantially
increased the likelihood that a private actor would harm the victim. Id. at 573. Similarly here,
viewing the evidence in the light most favorable to the Does, the Court must conclude that the
act of moving C.T.’s seat to the front of the bus, in close proximity to Minor Doe’s seat,
substantially increased the risk that C.T. would harm Minor Doe. Not only did the move place
C.T. within one seat of Minor Doe, the record establishes that Minor Doe was sitting in the seat
that afforded the worst visibility for the driver. At a minimum, the record supports a finding that
Minor Doe was safer before C.T.’s seat assignment was changed. This would seem sufficient to
satisfy the first prong of the state-created danger test. See Kallstrom, 136 F.3d at 1067 (it is
enough if “the City’s actions . . . substantially increase[ed] the likelihood that a private actor
would deprive [the plaintiff] of [her] liberty interest in personal security”).
Nevertheless, the Court finds that the Does cannot establish the third prong because they
cannot demonstrate that the defendants acted with the “requisite culpability to establish a
substantive due process violation under the Fourteenth Amendment.” Ewolski v. City of
Brunswick, 287 F.3d 492, 510 (6th Cir. 2002). Only conduct that “shocks the conscience” will be
sufficient to establish the requisite culpability. Hunt v. Sycamore Cmty. Sch. Dist. Bd. of Educ.,
542 F.3d 529, 535 (6th Cir. 2008). In situations where there is opportunity for reflection, the
18

App. 34

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 19 of 38. PageID #: 3400

guiding principle is “deliberate indifference,” which the Sixth Circuit has equated with
“subjective recklessness[.]” McQueen, 433 F.3d at 469; see Wilson v. Columbus Bd. of Educ.,
589 F. Supp. 2d 952, 962–63 (S.D. Ohio 2008). Under this standard, “the official must both be
aware of facts from which the inference can be drawn that a substantial risk of serious harm
exists, and he must also draw the inference[.]” McQueen, 433 F.3d at 469 (quoting Sperle v.
Mich. Dep’t of Corr., 297 F.3d 483, 493 (6th Cir. 2002)); see Wilson, 589 F. Supp. 2d at 962–63.
The Does argue that C.T.’s prior record should have put the Board and JLSD Employees
on notice that C.T. posed a substantial risk of harming Minor Doe. Specifically, they point to the
Success Plan instituted for C.T. in the third grade—and the precipitating acts of taking other
children’s property, lying about the theft, and failing to follow teacher instructions—as well as
the recent match-lighting incident. They also highlight the fact that C.T. interfered with a
student’s efforts to report the match lighting incident as evidence that the Board knew that C.T.
had “harassed, intimidated and bullied other students, and engaged in conduct that causes or
could cause injury to others . . . .” (Board MSJ Opp’n at 2390.) According to the Does, “by
moving C.T. to the front of the bus, knowing he did not follow directions, and leaving him with a
single adult who knowingly could not control his students, [the Board] significantly increased the
likelihood that C.T. would find the best seat to provide cover, i.e., the one directly behind the
driver. These facts, all known to [the Board], satisfy the requisite showing of subjective
recklessness to sustain” their substantive due process claims. (Id. at 2391.) In advancing this
argument, the Does insist that it is not necessary that the Board have appreciated the specific risk
that C.T. would sexually assault Minor Doe. (Id.) The weight of authority does not support this
position.
19

App. 35

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 20 of 38. PageID #: 3401

For example, the Sixth Circuit rejected a similar argument in Range v. Douglas, 763 F.3d
573 (6th Cir. 2014). There, the plaintiffs’ deceased family members were sexually violated by a
county employee at the morgue. Even though the perpetrator’s supervisors were aware of his
drinking, tardiness, domestic relations charges, and possible sex with living women at the
morgue, the court rejected a finding of deliberate indifference. While the court acknowledged
that people under the influence have lapses in judgment, “a jury could not conclude that the
supervisors were aware of facts from which they could infer a substantial risk of the kind of
serious harm that occurred here, that they did infer it, and that they acted with deliberate
indifference toward the rights of the families involved.” Range, 763 F.3d at 591–92 (emphasis
added) (pointing to the absence of evidence of a “substantial risk that an inebriated person will
desecrate a body”).
Also, in McQueen, a teacher left students unattended in a classroom while she escorted
several classmates to the computer lab. Despite the fact that one of the remaining children had a
prior history of fighting with other students—“sometimes beating them up and other times
stabbing them with a pencil”—the court held that neither the teacher nor the school was
deliberately indifferent to the risk that the student perpetrator would shoot the plaintiff with a
gun he had secretly brought from home. McQueen, 433 F.3d at 462, 469–70. In reaching this
conclusion, the court endorsed the district court’s deliberate indifference analysis wherein it
reasoned:
[A]lthough [the school official] was aware of [Smith’s] disruptive and sometimes
violent behavior, no reasonable fact finder could conclude that she knew [Smith]
would use a gun to kill another student if left unsupervised for a few minutes.
Plaintiff does not claim that [Smith] ever specifically threatened to kill or serious
injure decedent [Doe] or any other student. Nor does plaintiff claim that prior to
February 29, 2000, [Smith] had ever brought a gun or other dangerous weapon to
20

App. 36

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 21 of 38. PageID #: 3402

school. Absent such evidence, it is impossible to conclude that defendant was on
notice of a substantial risk to the students left alone in the classroom.
Id. at 469–70 (emphasis added).
Similarly, in Peer ex rel. Doe v. Porterfield, No. 1:05-cv-769, 2007 WL 9655728 (W.D.
Mich. Jan. 8, 2007), the court declined to apply the state-created danger theory in a lawsuit
involving student-on-student sexual assault. There, an eighth-grade student perpetrator sexually
molested and/or attempted to sexually molest several kindergarten students while serving in the
kindergarten classroom as a teacher’s aide. In an attempt to establish liability under Title IX 6 and
§ 1983, the plaintiffs pointed to the perpetrator’s poor academic record and previous incidents of
misconduct, including leaving his assigned seat on the bus and bullying a student by kicking and
hitting her, none of which, the court noted, involved “a prior incident of sexual misconduct or
even a tendency or proclivity for such conduct.” Id. at *4. Observing that the record was devoid
of any evidence of sexual harassment by the offending student, the court concluded that no
reasonable jury could find that the school district was deliberately indifferent to the risk that the
students in question would be sexually molested. Id. at *10.
As was the case in Peer, there was nothing about C.T.’s school record that could have put
the JLSD Employees on notice that he posed a risk of sexually assaulting other students. Even
affording the Does every inference as to this past record—and even giving full credence to the
Does’ belief that C.T.’s conduct included intimidation or “bullying”—nothing about his past
suggested a proclivity for sexual misconduct. The Does point to the fact that JLSD Employees
imposed severe restrictions on C.T’s movements in the building as evidence that they viewed his
Liability of a school district under Title IX for sexual abuse of students and liability under section 1983 are
“comparable.” Klemencic v. Ohio State Univ., 263 F.3d 504, 510 (6th Cir. 2001) (citing Gebser v. Lago Vista Indep.
Sch. Dist., 524 U.S. 274, 291, 118 S. Ct. 1989, 141 L. Ed. 2d 277 (1998)).
21
6

App. 37

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 22 of 38. PageID #: 3403

actions to be serious. (Board MSJ Opp’n at 2391.) To be sure the match-lighting behavior and
other associated conduct was serious, which is why JLSD Employees took action in response to
it, including moving C.T.’s seat on the bus. However, serious as this past behavior may have
been, the risk that C.T. would sexually assault another student was not so obvious that JLSD
Employees should have known about it. See McQueen, 433 F.3d at 470. Because no reasonable
juror could conclude that JLSD Employees knew or should have known that C.T. would sexually
assault Minor Doe if his seat was moved to the front of bus—and even if placed in the seat next
to Minor Doe—the Does have failed to establish the existence of a state-created danger.
B.

Monell Liability Under § 1983

A school board may not be held liable under § 1983 on a theory of respondeat superior
theory. See Monell v. Dep’t of Soc. Servs., 436 U.S. 658, 691, 98 S. Ct. 2018, 56 L. Ed. 2d 611
(1978); McQueen, 433 F.3d at 470. Rather, a governmental entity is only responsible when its
policy or custom was the “moving force” behind the asserted harm, or if the entity’s “failure to
train employees amounts to deliberate indifference to constitutional rights.” Bd. of Cty. Comm’rs
of Bryan Cty. v. Brown, 520 U.S. 397, 404, 117 S. Ct. 1382, 137 L. Ed. 2d 626 (1977);
Arrington-Bey v. City of Bedford Heights, 858 F.3d 988, 994 (6th Cir. 2017); see Doe v.
Claiborne Cty. ex rel. Clairborne Cty. Bd. of Educ., 103 F.3d 495, 505–06 (6th Cir. 1996).
Moreover, to impose municipal liability, “it is necessary to show that [the municipality’s]
employees inflicted a constitutional harm.” McQueen, 433 F.3d at 471 (quoting Ewolski, 287
F.3d at 516).
As discussed above, JLSD Employees did not inflict a constitutional harm because they
did not act with the requisite culpability to increase the risk of harm from a third-party. “Because
22

App. 38

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 23 of 38. PageID #: 3404

the [Board] can only be held liable if there is a showing of liability on the part of its officials, the
determination that the [JLSD Employees] did not violate [Minor Doe’s] constitutional rights
resolves the [Monell] claim against the [Board] as well.” Id. at 471 (quoting Bukowski v. Akron,
326 F.3d 702, 712–13 (6th Cir. 2003)).
Further, the Does have failed to establish a policy or custom from which they could hold
the Board liable. While they suggest that “[t]o say [the Board] has a policy of inadequate training
and supervision is an understatement[,]” the record does not support such a claim. (Board MSJ
Opp’n at 2393.) First, the Does proclaim that the JLSD individuals were “clearly aware of the
potential for student-on-student sexual harassment as they have a general policy to separate boys
from girls on their buses.” (Id. at 2394.) From this they reason that “its decision to forgo training
its employees on these issues was the result of its deliberate indifference to harmful, foreseeable
consequences, i.e., peer on peer sexual assault, that could result from the lack of instruction and
pupil management.” (Id.) They conclude that “if Singleton had been properly trained and made
aware of these safety issues/safety plan, he would not have permitted C.T. to sit with Minor Doe
and would have, in turn, unequivocally prevented all of the sexual assaults from occurring to
her.” (Id.)
Such an analysis is steeped in speculation and relies entirely upon hindsight. The mere
fact that a different course of action in this case might have prevented the unfortunate events that
underlie this litigation does not support a finding of a district-wide policy or custom to encourage
such events. A “custom” to establish municipal liability under § 1983 must “be so permanent and
well settled as to constitute a custom or usage with the force of law.” Claiborne Cty., 103 F.3d at
507 (quoting Monell, 436 U.S. at 691). “In turn, the notion of ‘law’ must include ‘[d]eeply
23

App. 39

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 24 of 38. PageID #: 3405

embedded traditional ways of carrying out state policy. It must reflect a course of action
deliberately chosen from among various alternatives.” Id. (internal citation omitted). “Proof of a
single, isolated incident of misconduct by a nonpolicymaking employee is not sufficient to
impose liability under Monell unless training or supervision was so reckless or grossly negligent
that misconduct was almost inevitable or substantially certain to result.” Vinson v. Campell Cty.
Fiscal Ct., 820 F.2d 194, 200 (6th Cir. 1987) (quotation marks and footnote omitted); see, e.g.,
Sargi, 70 F.3d at 912 (finding no evidence from single incident that the school board
affirmatively adopted a custom, practice, or policy of taking children suffering from seizures
home without necessary medical intervention).
Moreover, the Does have failed to establish that the Board’s failure to train Singleton on
issues of identifying and preventing sexual harassment constituted deliberate indifference to a
known or obvious risk to Minor Doe. Contrary to the Does’ suggestion, there is nothing in the
record to suggest that the Board’s practice of encouraging bus drivers to group student riders by
age and gender is grounded in a concern for peer-on-peer sexual assault.7 The Does have
produced no evidence of other incidents where permitting children of the opposite gender to sit
together resulted in sexual assault, nor any evidence that Minor Doe’s assault was inevitable
because of inadequate training or supervision. See Vinson, 820 F.2d at 200.
C.

Title IX

Title IX protects a student from “be[ing] excluded from participation in, be[ing] denied
the benefits of, or be[ing] subjected to discrimination under any educational program or activity
receiving Federal financial assistance[.]” 20 U.S.C. § 1681(a). An educational institution can be

24

App. 40

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 25 of 38. PageID #: 3406

held liable for student-on-student sexual harassment under Title IX only “when a student can
demonstrate: (1) she suffered harassment so severe as to ‘deprive [her] of access to . . .
educational opportunities,’ (2) the institution had actual knowledge of that harassment, and (3)
the institution was ‘deliberately indifferent’ to the harassment.” M.D. ex rel. Deweese v. Bowling
Green Indep. Sch. Dist., 709 F. App’x 775, 777 (6th Cir. 2017) (quoting Davis v. Monroe Cty.
Bd. of Educ., 526 U.S. 269, 650, 119 S. Ct. 1661, 143 L. Ed. 2d 839 (1999)); see also Hill v.
Cundiff, 797 F.3d 948, 970 (11th Cir. 2015) (breaking down the same standard into five
elements).
Here, there is no question that the assaults on Minor Doe were sufficiently severe to
satisfy the first element identified by the Sixth Circuit. See Soper, 195 F.3d at 855 (noting that
sexual assault “obviously qualifies as being severe, pervasive, and objectively offensive”). It is
also undisputed, however, that the Board did not have actual knowledge8 of these assaults until
Waltman received the email from the Does on November 12, 2016.9 Its response to this
knowledge was not, as a matter of law, deliberately indifferent.
A school is deemed deliberately indifferent to acts of student-on-student sexual assault or
Neftzer testified simply that bus drivers are encouraged to group children by age and gender because older children
may discuss topics that are not suited for younger children. (Neftzer Dep. at 514-15; see Neftzer Aff. ¶ 7.)
7

Even though the Does have suggested that Singleton should have known about the assaults occurring on his bus, a
position that stands contrary to the JTPD’s investigation that found that he could not have seen C.T.’s misconduct,
Singleton was not an “appropriate person” under Title IX. In Gebser v. Lago Vista Indep. Sch. Dist., the Supreme
Court held that a school district cannot be held liable for sexual harassment of a student by one of its teachers
“unless an official who at a minimum has authority to address the alleged discrimination and institute corrective
measures on the recipient’s behalf has actual knowledge of discrimination in the recipient’s programs and fails
adequately to respond.” 524 U.S. at 290. Here it is undisputed that Singleton had no authority to discipline students,
and there is nothing in the record to suggest that he had the authority to remediate sexual misconduct by students.
Accordingly, any knowledge he had, or should have had, cannot be attributed to the Board.
8

For the reasons set forth in the prior section of this memorandum opinion, the Court also finds that, prior to
November 11, 2016, the Board was not deliberately indifferent to the risk that Minor Doe would be assaulted by
C.T. See Campbell v. Dundee Cmty. Schs., 661 F. App’x 884, 889 (6th Cir. 2016) (“If there was no notice to school
officials of a risk of sexual harassment occurring, then there was no deliberate indifference toward that risk.”)
9

25

App. 41

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 26 of 38. PageID #: 3407

harassment when its response or lack thereof is “clearly unreasonable in light of the known
circumstances.” Stiles ex rel. D.S. v. Grainger Cty., 819 F.3d 834, 848 (6th Cir. 2016) (quotation
marks omitted). This is a “high bar” and is not a “mere reasonableness” standard. Id.; see Doe v.
Sch. Bd. of Broward Cty., 604 F.3d 1248, 1259 (11th Cir. 2010) (deliberate indifference is an
“exacting standard”). It is also a standard that is amenable to summary judgment, as “there is no
reason why courts . . . [can]not identify a response as not ‘clearly unreasonable’ as a matter of
law.” Stiles, 819 F.3d at 848 (alternation in original) (quotation marks omitted).
Here, the Board acted quickly and decisively once Walton was aware of the assaults.
School officials immediately launched an internal investigation by reviewing bus video footage
and interviewing students, and school employees cooperated with the authorities as they
conducted their separate investigation. C.T. was suspended immediately and, within a matter of
days, expelled from school. He never rode the bus again after November 11, 2016, and he never
again came into contact with Minor Doe. School officials also immediately met with the Does to
address their concerns, arranged for counseling for Minor Doe, and continued to check on Minor
Doe in the months that followed. This course of action was both swift and effective, in that it did
not subject Minor Doe to any further sexual assaults. See Davis, 526 U.S. 645 (“[T]he deliberate
indifference must, at a minimum, cause [students] to undergo harassment or make them liable or
vulnerable to it.”) (quotation marks omitted); see, e.g., Pahseen, 668 F.3d at 364 (No Title IX
liability where the school district’s response to sexual harassment and assault was “prompt,
reasonable, and not deliberately indifferent”); Soper, 195 F.3d at 855 (finding the “prompt and
thorough response by school officials” precluded a finding of deliberate indifference). The
Board’s response was not, as a matter of law, deliberately indifferent.
26

App. 42

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 27 of 38. PageID #: 3408

D.

State Law Claims and Tort Immunity

Section 2744 of the Ohio Revised Code extends to municipalities immunity from tort
liability for governmental and propriety functions. Ohio Rev. Code § 2744.02(A)(1); Chesher v.
Neyer, 477 F.3d 784, 796 (6th Cir. 2007). It is well settled that “government functions” include
the act of providing a system of public education. See § 2744.01(C)(2)(c). There are, however,
certain exceptions to the general grant of immunity spelled out in the statute. Specifically, §
2744.02(B) provides five instances where immunity is not available to a municipality: (1) injury
or damage is caused by a municipal employee’s negligent operation of a motor vehicle, (2) the
losses are due to the negligent performance of employees with respect to proprietary functions of
a political subdivision, (3) damages are the result of a municipality’s negligent failure to keep
public roads in repair, (4) damages are the result of a physical defect on the grounds of public
buildings used for government functions, and (5) civil liability is expressly imposed by another
provision of the Ohio Revised Code.
The Does suggest that the first exception—injury or damage caused by a municipal
employee’s negligent operation of a motor vehicle—applies to divest the Board of statutory
immunity. See Ohio Rev. Code § 2744.02(B)(1). However, the Ohio Supreme Court has made
clear that the statutory exception for the operation of a motor vehicle by a municipal employee
“pertains only to negligence in driving or otherwise causing the vehicle to be moved.” Doe v.
Marlington Local Sch. Dist. Bd. of Educ., 907 N.E.2d 706, 711 (Ohio 2009). In Marlington, as in
this case, the district school board was sued when a student was sexually assaulted on a school
bus by a fellow student. With respect to board liability, the court framed the question as follows:
The issue in this case is whether a school bus driver’s supervision of the conduct
of children passengers on a school bus amounts to operating of a motor vehicle
27

App. 43

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 28 of 38. PageID #: 3409

within the statutory exception to political subdivision immunity under [Ohio Rev.
Code §] 2744.02(B)(1).
Id. at 708. The Ohio Supreme Court answered the question in the negative, granting summary
judgment to the school board, and specifically finding that the “language of [Ohio Rev. Code §]
2744.02(B)(1) is not so expansive that it includes supervising the conduct of student passengers.
. . .” Id. at 711-12.
Notwithstanding the ruling in Marlington, the Does cite the unreported appellate decision
of Swain v. Cleveland Metro. Sch. Dist., No. 94553, 2010 WL 3722280 (Ohio Ct. App. Sept. 23,
2010), in support of their position. In Swain, a kindergarten student fell asleep on the bus ride
home from school. The bus driver failed to inspect his bus before returning the bus to the garage,
and the sleeping child was left on the bus. The mother sued the school for damages. In denying
statutory immunity on a motion to dismiss, the court distinguished Marlington, noting that “the
conduct of the bus driver in the case at bar takes place in relation to her operation of the bus and
the student, not the supervision of the conduct of the students on the bus as occurred in the
sexual assault in Marlington.” Id. at *2. While they acknowledge that their claims against the
Board are premised, in part, upon “Singleton’s complete failure to supervise C.T.[,]” the Does
insist that their claims “also stem from [Singleton’s] affirmative conduct of instructing C.T. to sit
next to Minor Doe, in the seat directly behind him, without any ability to see what was going on
in the seat.” (Board MSJ Opp’n at 2401.)
While the Does focus on a single affirmative act of Singleton of placing the two children
in the same seat, it was the conduct of C.T., undetected by Singleton, that caused Minor Doe’s
injuries, unlike the situation in Swain wherein the injury was caused by the bus driver’s failure to
inspect. The Ohio Supreme Court has clearly held that, for purposes of § 2744.02(B)(1),
28

App. 44

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 29 of 38. PageID #: 3410

operation of a motor vehicle does not include supervising the conduct of students, and, as a
federal court reviewing a state statute, this Court is bound by that determination. See, e.g., Doe v.
Bath Local Sch. Dist., No. 1-14-12, 2014 WL 5802858, at *2-3 (Ohio Ct. App. Nov. 10, 2014)
(relying on Marlington to find school immune from suit of minor sexually molested by another
student on a school bus);10 but see N.A.D. v. Cleveland Metro. Sch. Dist., No. 97195, 2012 WL
5288769, at *5 (Ohio Ct. App. Oct. 25, 2012) (at motion to dismiss stage, complaint alleging that
bus driver failed to inspect students resulted in student-on-student sexual assault was sufficient to
defeat claim of statutory liability).
The Court finds that the Board qualifies for immunity under Ohio Rev. Code §
2744.02(A)(1), as its employees were engaged in the governmental function of providing a
public education. Further, none of the five exceptions applies to the circumstances as they are
known following discovery. Thus, to the extent that the municipality is sued under state law, it is
entitled to immunity with respect to the Does’ state tort claims. See generally Hout v. Mansfield,
550 F. Supp. 2d 701, 744 (N.D. Ohio 2008) (“Ohio courts have held that political subdivisions
are entitled to immunity under § 2744.02 for the intentional torts committed by their
employees.”) (collecting cases). Moreover, because none of the Does’ federal or state claims
survive against the Board, their derivative claim of loss of consortium also fails. See Bradley v.
Sprenger Enters., Inc., No. 07CA009238, 2008 WL 1849649, at *3 (Ohio Ct. App. Apr. 28,
2008) (citing Wang v. Goodyear Tire & Rubber Co., 587 N.E.2d 387 (Ohio Ct. App. 1990)).
In Bath, the complaint alleged that a bus driver failed to follow protocol that required a seventeen-year old student
with known danger tendencies to ride in a seat by himself and permitted the student to sit next to a much younger
student, whom he repeatedly molested sexually. In attempting to distinguish Marlington, the plaintiff emphasized
the school’s affirmative decision to place a known violent teenager on a bus with elementary school students.
Notwithstanding this factual distinction, the court found that the issue was indistinguishable from Marlington in that
it still amounted to a failure to supervise claim. Id. at *2.
10

29

App. 45

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 30 of 38. PageID #: 3411

Because the Board is entitled to dismissal of the federal claims against it and is entitled to
statutory immunity as to the state claims, the Board’s motion for summary judgment is
GRANTED in full.
V. JLSD EMPLOYEES’ SUMMARY JUDGMENT MOTION
Like the Board, JLSD Employees argue collectively that they are entitled to summary
judgment on the federal claims raised against them under 42 U.S.C. § 1883 because the Does
cannot establish the existence of a state-created danger.11 Because the lack of a state-created
danger prevents the Does from maintaining a constitutional claim against these defendants for
injuries caused by a third-party actor, the Court agrees. See generally, McQueen, 433 F.3d at 463
(noting that a § 1983 claim requires the deprivation of a constitutional right). As discussed
above, the Does have failed to identify evidence that would raise a genuine issue of material fact
that JLSD Employees violated Minor Doe’s substantive due process rights. For this reason,
alone, JLSD Employees are entitled to qualified immunity. 12 See, e.g., id. at 470 (absent a statecreated danger, individual school officials were entitled to summary judgment on substantive due
process claims involving student-on-student violence); Soper, 195 F.3d at 853 (finding qualified
immunity for school officials who were not responsible for a state-created danger to a mentally
JLSD Employees also argue that they cannot be held individually liable because they have been sued only in their
official capacities. It is true that the SAC does not specifically state that JLSD Employees have been sued in their
individual capacities. However, even the case law relied upon by JLSD Employees provides that “[w]hen a § 1983
plaintiff fails to affirmatively plead capacity in the complaint, [the court may] look to the course of proceedings to
determine whether” the plaintiff put the defendants on notice that they were sued in their individual capacities.
Moore v. City of Harriman, 272 F.3d 769, 773 (6th Cir. 2001). Here, the SAC alleges that the JLSD Employees
acted with malice. Moreover, the Does sought to hold “all Defendants” jointly and severally liable for compensatory
damages. (SAC at 314.) Further, the Does’ responses to JLSD Employee’s summary judgment motion (see JLSD
Employees MSJ Opp’n at 2617–18) makes clear that the JLSD Employees are being sued in their individual
capacities. See Moore, 272 F.3d at 774.
11

Before there can be supervisory liability under § 1983, there must be unconstitutional conduct by a subordinate
employee. See McQueen, 433 F.3d at 470 (“a prerequisite of supervisory liability under § 1983 is unconstitutional
conduct by a subordinate of the supervisor”).
12

30

App. 46

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 31 of 38. PageID #: 3412

disabled middle school student who was sexually assaulted by fellow students).
A. Qualified Immunity
However, even if the Court were to find a qualifying constitutional violation, JLSD
Employees insist that they would still be entitled to qualified immunity from the federal claims.
Once again, the Court agrees. The qualified immunity doctrine shields government officials
performing discretionary actions from civil damages liability if their actions did not violate
clearly established statutory or constitutional rights of which a reasonable person would have
known. Pearson v. Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 172 L. Ed. 2d 565 (2009).
“Qualified immunity provides [officials] ‘breathing room to make reasonable but mistaken
judgments and protects all but the plainly incompetent or those who knowingly violate the law.’”
Mullins v. Cyranek, 805 F.3d 760, 765 (6th Cir. 2015) (quoting Stanton v. Sims, 571 U.S. 3, 6,
134 S. Ct. 3, 187 L. Ed. 2d 341 (2013) (per curiam)). Qualified immunity will apply “‘if
[officials] of reasonable competence could disagree on the issue.’” Id. (quoting Malley v. Briggs,
475 U.S. 335, 341, 106 S. Ct. 1092, 89 L. Ed. 2d 271 (1986)); see Ewolski, 287 F.3d at 501
(qualified immunity will apply unless it is obvious that no reasonably competent official would
have concluded that the action was lawful).
Courts employ a two-part test to determine if qualified immunity applies. First, courts
determine whether the facts, taken in a light most favorable to the party alleging injury, show an
official’s conduct violated a constitutional right. Ewolski, 287 F.3d at 501; see Saucier v. Katz,
533 U.S. 194, 201, 121 S. Ct. 2151, 150 L. Ed. 2d 272 (2001). Second, if a constitutional right
was violated, courts must determine “whether the violation involved a clearly established
constitutional right of which a reasonable person would have known.” Peete v. Metro. Gov’t of
31

App. 47

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 32 of 38. PageID #: 3413

Nashville & Davidson Cty., 486 F.3d 217, 219 (6th Cir. 2007) (quotation marks and citation
omitted). If a plaintiff fails to establish either prong, he has failed to carry his burden, and
judgment is appropriate for the defendant. Chappell v. City of Cleveland, 585 F.3d 901, 907 (6th
Cir. 2009). Since the failure of either prong is dispositive in favor of a defendant, the Court may
address either prong first.13 See Pearson, 555 U.S. at 236.
The Supreme Court has recently reiterated earlier admonitions that “‘clearly established
law’ should not be defined ‘at a high level of generality.’” White v. Pauly, -- U.S. --, 137 S. Ct.
548, 552, 196 L. Ed. 2d 463 (2017) (per curiam) (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 742,
131 S. Ct. 2074, 179 L. Ed. 2d 1149 (2011)). Instead, “the clearly established law must be
‘particularized’ to the facts of the case.” Id. at 552 (quoting Anderson v. Creighton, 483 U.S.
635, 640, 107 S. Ct. 3034, 97 L. Ed. 2d 523 (1987)). “Otherwise, ‘[p]laintiffs would be able to
convert the rule of qualified immunity . . . into a rule of virtually unqualified liability simply by
alleging violation of extremely abstract rights.’” Id. (quoting Anderson, 563 U.S. at 639).
According to this directive, “a plaintiff must identify a case with a similar fact pattern
that would have given ‘fair and clear warning to [officials]’ about what the law requires.”
Arrington-Bey, 858 F.3d at 993 (quoting Pauly, 137 S. Ct. at 552). Throughout the qualified
immunity analysis, “[t]he ‘dispositive inquiry . . . [remains] whether it would be clear to a
reasonable officer that his conduct was unlawful in the situation he confronted.’” Id. (quoting
Saucier, 533 U.S. at 202).
On some occasions, it may be necessary to employ a third step, which is whether the plaintiff “‘offered sufficient
evidence to indicate that what the official allegedly did was objectively unreasonable in light of the clearly
established constitutional rights.’” Thacker v. Lawrence Cty., 182 F. App’x 464, 468 (6th Cir. 2006) (quoting
Champion v. Outlook Nashville, Inc., 380 F.3d 893, 901 (6th Cir. 2004)).
13

32

App. 48

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 33 of 38. PageID #: 3414

In determining whether a law is clearly established, this Court looks to decisions of the
Supreme Court and the Sixth Circuit. Carver v. City of Cincinnati, 474 F.3d 283, 287 (6th Cir.
2007). If controlling authority does not establish the law, this Court may consider other circuit
authority. Andrews v. Hickman Cty., 700 F.3d 845, 853 (6th Cir. 2012). Although a prior case
need not be directly on point, “existing precedent must have placed the statutory or constitutional
question beyond debate.” Ashcroft, 563 U.S. at 741. The clearly established prong will depend
“substantially” on the level of generality at which the legal rule is identified. Anderson, 483 U.S.
at 639. Again, the right must be clearly established in a particularized sense, and not in a general
abstract sense. Id. at 640. “‘This standard requires the courts to examine the asserted right at a
relatively high level of specificity[,]’ and ‘on a fact-specific, case-by-case basis[.]’” Bletz v.
Gribble, 641 F.3d 743, 750 (6th Cir. 2011) (alterations in original) (quoting Cope v. Heltsley,
128 F.3d 452, 458–59 (6th Cir. 1997)).
With respect to the first prong, the Court has already determined that there was no “statecreated danger,” and, therefore, no constitutional violation for student-on-student sexual assault.
However, even if the Does had established the existence of a constitutional violation, qualified
immunity would protect the JLSD Employees because the rights at issue herein were not clearly
established.
It is true that the general/abstract right to be free from student-on-student harassment is
well established. See Shively v. Green Local Sch. Dist. Bd. of Educ., 579 F. App’x 348, 356 (6th
Cir. 2014). However, the Does fail to identify any controlling caselaw from the Sixth Circuit or
the Supreme Court, or even persuasive authority from other jurisdictions, that would support a
finding that JLSD Employees were on notice that the alleged unlawfulness of their conduct in the
33

App. 49

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 34 of 38. PageID #: 3415

mandated “particularized sense” was apparent or that they were “plainly incompetent” for failing
to protect Minor Doe from the actions of CT. Specifically, they fail to identify any case wherein
school officials were held responsible for failing to protect students from sexual harassment or
sexual assault involving another student with no prior history of sexual misconduct. They also
fail to identify any authority that would have alerted these officials to the possibility of liability
for reported sexual assaults, notwithstanding immediate and effective efforts to remedy the
situation. Under these circumstances, JLSD Employees would be entitled to qualified immunity
on the federal claims.
B. State Law Claims and Tort Immunity
Ohio Rev. Code § 2744 also provides immunity for tort actions for employees of political
subdivisions, provided their acts and omissions were not “manifestly outside the scope of the
employee’s employment or official responsibilities” or were taken “with malicious purpose, in
bad faith, or in a wanton or reckless manner[.]” Ohio Rev. Code § 2744.03(A)(6)(b); see
Blankenship v. Enright, 586 N.E.2d 1176 (Ohio Ct. App. 1990) (immunity for employees of
political subdivisions for negligent and intentional torts). “Malice” is the “willful and intentional
design to injure or harm another, usually seriously, through conduct that is unlawful or
unjustified.” Otero v. Wood, 316 F. Supp. 2d 612, 629 (S.D. Ohio 2004) (citations omitted).
“Bad faith” includes a “dishonest purpose, conscious wrongdoing, or breach of a known duty
through some ulterior motive.” Id. “Wanton misconduct” is defined as “the failure to exercise
any care toward those to whom a duty of care is owned in circumstances in which there is a great
probability that harm will result.” Anderson v. City of Massillon, 983 N.E.2d 266, 273 (Ohio
2012) (citation omitted). “Reckless conduct” is “characterized by the conscious disregard of or
34

App. 50

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 35 of 38. PageID #: 3416

indifference to a known or obvious risk of harm to another that is unreasonable under the
circumstances and is substantially greater than negligent conduct.” Id. While the determination
of “recklessness” is typically reserved for a jury, because the standard is high, summary
judgment is appropriate “where the individual’s conduct does not demonstrate a disposition to
perversity.” O’Toole v. Denihan, 889 N.E.2d 505, 517 (Ohio 2008).
The various individual defendants had different levels of involvement with the incidents
involving C.T. and Minor Doe. Thus, it is important to consider the individuals’ actions
separately. See, e.g., Vidovic v. Hoynes, 29 N.E.3d 338, 348 (Ohio Ct. App. 2015). As previously
discussed, Krieg, the dean of students, gathered information regarding allegations that C.T. lit a
match on the school bus and reported the information to Waltman. She was not involved in the
decision to assign C.T. to a front row seat on the bus. Neff, a guidance counselor, assisted Krieg
in gathering information and had previously worked with C.T.’s third grade teacher in
developing the “Success Plan.” Waltman had received no complaints against C.T. until the
match-lighting incident, though she was aware of the “Success Plan.” She made the decision to
move C.T.’s seat, after consultation with Neftzer. Neftzer previously received a complaint about
Singleton’s pupil management abilities prior to the events giving rise to this litigation. Finally,
on at least one occasion, Singleton directed C.T. to sit next to Minor Doe, and he failed to detect
the abuse that occurred on his bus.
The Does argue that Krieg and Neff “ignored” repeated instances of C.T.’s bullying, in
addition to other serious misconduct. Viewing the evidence in a light most favorable to the Does,
there is no doubt that C.T’s prior conduct was serious. Still, there is nothing in the record that
would support a finding that Krieg and Neff should have anticipated that C.T. would commit a
35

App. 51

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 36 of 38. PageID #: 3417

sexual assault on the bus if his seat was moved. See also Williams v. Columbus Bd. of Educ., 610
N.E.2d 1175, 1178–79 (Ohio Ct. App. 1992) (school was entitled to statutory immunity for state
torts where school officials could not have anticipated that students with history of fighting
would sexually assault a female student).
As for Waltman and Neftzer, the Does essentially complain that they failed to impose the
same stringent supervision requirements on the bus that were imposed in the school building.
They suggest that better supervision on the bus would have prevented C.T.’s sexual attacks.
While another plan may have been more effective, it cannot be said that either official acted in
bad faith, maliciously, or recklessly. “Courts have not required schools to take perfect action to
remedy [student misconduct] to avoid claims related to gross negligence, . . . but that they take
some precautions or steps to recognize and address the issue.” Vidovic, 29 N.E.3d at 349. Both
individuals reacted to claims of student misconduct with a plan designed to address the problem,
and they cannot be denied statutory immunity simply because the plan failed to protect Minor
Doe from unanticipated consequences. There is no basis for withholding statutory immunity
from these defendants.
As to the remaining individual defendant—Singleton—the Does argue that Singleton
intentionally directed C.T. to sit next to Minor Doe. Even though Singleton took this action with
knowledge of C.T.’s prior conduct involving the matching-lighting incident, there is nothing in
the record that would have suggested that Singleton should have anticipated that C.T. would
sexually assault Minor Doe or any other student in his immediate vicinity. While the
consequences to Minor Doe were tragic, the Court cannot employ hindsight to find Singleton’s
conduct reckless. See O’Toole, 889 N.E.2d at 517 (“We must apply the law without
36

App. 52

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 37 of 38. PageID #: 3418

consideration of emotional ramifications and without the benefit of 20-20 hindsight.”)
Ultimately, the Court is unable to find that any of the JLSD Employees acted in a manner
that showed “a willful and intentional design to do injury without just cause . . . or a failure to
exercise any care when the probability of harm is great[.]” Mohat v. Horvath, No. 2013-L-009,
2013 WL 5450296, at *4 (Ohio Ct. App. Sept. 30, 2013). The record simply does not support a
finding that any of the JLSD Employees acted recklessly, in bad faith, or with malice. Therefore,
JLSD Employees are entitled to statutory immunity on the Does’ state law tort claims. Moreover,
because these claims (as well as the federal claims) fail, the Does’ derivative loss of consortium
claim fails also. See, e.g., Cook v. City of Cincinnati, 658 N.E.2d 814, 821 (Ohio Ct. App. 1995)
(dismissing loss of consortium claim after a grant of statutory tort immunity to police officers).
JLSD Employees’ summary judgment motion is GRANTED in full.
VI. THE DOES’ SUMMARY JUDGMENT MOTION
The Does also seek summary judgment against all defendants on their federal claims
under 42 U.S.C. § 1983. Their request for summary judgment hinges upon the Court finding that
the Board and JLSD Employees were responsible for a state-created danger. (Does MPSJ at
1578.) Specifically, the Does argue that defendants should have anticipated from C.T.’s past
conduct that he was likely to sexually assault Minor Doe if his seat was moved to the front of the
bus. However, as already discussed in depth above, the record—even when viewed in a light
most favorable to the Does—and governing authority do not support the finding of a statecreated danger.14 Thus, the Does’ summary judgment motion is DENIED.

Many of the arguments raised in the Does’ summary judgment motion are also dependent on the Does’
characterization of the record. Of course, the Does are not entitled to have the record viewed in a light most
favorable to them when seeking summary judgment. See Profit Pet, 603 F.3d at 312.
14

37

App. 53

Case: 5:17-cv-01931-SL Doc #: 93 Filed: 12/14/18 38 of 38. PageID #: 3419

VII. CONCLUSION
What happened to Minor Doe aboard a JLSD bus was disturbing and most unfortunate.
Yet, tragic as it was, it was not the result of a constitutional violation by the Board or JLSD
Employees. Accordingly, for the foregoing reasons, the Does’ summary judgment motion is
DENIED, and the summary judgment motions of the Board and JLSD Employees are
GRANTED. This case is dismissed.
IT IS SO ORDERED.

Dated: December 14, 2018

HONORABLE SARA LIOI
UNITED STATES DISTRICT JUDGE

38

App. 54

